<html>
<title> - LEGISLATIVE PROPOSALS FOR FOSTERING TRANSPARENCY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



           LEGISLATIVE PROPOSALS FOR FOSTERING TRANSPARENCY

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 23, 2017

                               __________

                           Serial No. 115-20

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-499 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="583f2837183b2d2b2c303d3428763b373576">[email&#160;protected]</a>                        
                       
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matthew Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

               Jonathan Skladany, Majority Staff Director
                    William McKenna, General Counsel
                          Mary Doocy, Counsel
                 Sarah Vance, Professional Staff Member
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 23, 2017...................................     1

                               WITNESSES

Mr. Hudson Hollister, Founder and Executive Director, The Data 
  Coalition
    Oral Statement...............................................     6
    Written Statement............................................     8
Mr. Norman Kirk Singleton, President, Campaign for Liberty
    Oral Statement...............................................    12
    Written Statement............................................    14
Mr. John Berlau, Senior Fellow, Competitive Enterprise Institute
    Oral Statement...............................................    16
    Written Statement............................................    18
Mr. Thomas Fitton, President, Judicial Watch
    Oral Statement...............................................    25
    Written Statement............................................    28
Mr. Richard Painter, S. Walter Richey Professor of Corporate Law, 
  University of Minnesota Twin Cities
    Oral Statement...............................................    34
    Written Statement............................................    36

                                APPENDIX

Letter of March 13, 2017, to Chairman Chaffetz, submitted by Mr. 
  Cummings.......................................................    76
Letter of March 22, 2017, from Public Citizen, Every Voice, 
  Democracy 21, Center for American Progress, Supporting 
  Presidential Tax Transparency Act, Submitted by Mr. Connolly...    78
Letter of March 22, 2017, from Americans for TaxFairness 
  Supporting Presidential Tax Transparency Act, Submitted by Mr. 
  Connolly.......................................................    90
Hearing Follow-up Response Submitted by Mr. Hudson Hollister, 
  Executive Director, Data Coalition.............................    92
Response from Mr. Hudson Hollister, Executive Director, Data 
  Coalition, to Questions for the Record.........................    97

 
            LEGISLATIVE PROPOSALS FOR FOSTERING TRANSPARENCY

                              ----------                              


                        Thursday, March 23, 2017

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:29 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Duncan, Farenthold, 
Foxx, Massie, Ross, Walker, Blum, Grothman, Comer, Cummings, 
Maloney, Connolly, Kelly, Watson Coleman, Plaskett, Demings, 
Krishnamoorthi, Raskin, DeSaulnier, and Sarbanes.
    Chairman  Chaffetz. The Committee on Oversight and 
Government Reform will come to order. And without objection, 
the chair is authorized to declare a recess at any time.
    Thank you all for being here. We are talking about some 
legislative proposals for fostering transparency. I appreciate 
the witnesses and your flexibility. I think we have had to 
reschedule this hearing and then, based on the schedule of the 
day, we bumped this back to 10:30 this morning. So I appreciate 
your patience and understanding as there are some big 
legislative things that are happening on the Floor. And again, 
we appreciate the expertise that you bring here.
    We are here because this committee, probably as much as 
anybody, wants to do everything it can to foster transparency, 
and it is critical to carrying out our committee's mission. As 
those of us that have the privilege of serving in Congress, we 
have an obligation to ensure the American people know how their 
money is spent and how their government functions. In all the 
undertakings, we seek to shed light on issues, share 
information that matters to the taxpayer and advance 
legislative solutions where necessary.
    We are not only the Oversight Committee, but we are also 
the Committee on Government Reform, and so with the reform in 
mind, we will examine three legislative proposals and shine 
light, illuminate the light in here as well, three legislative 
proposals which strive to improve the way taxpayers access 
information.
    One bill is called the Audit the Fed, referring to the 
Federal Reserve; a bill that I have championed, the Fanny and 
Freddie Open Records Act of 2017. Fanny and Freddie have 
obligations that the American taxpayers have that are literally 
a staggering amount of number in the hundreds of billions of 
dollars; and the Open the Government Data Act.
    Last Congress, we passed bipartisan Freedom of Information 
Act or FOIA legislation. It was signed into law and marked a 
big step forward in reforming the process. We didn't solve all 
the problems. There are still some that face us moving forward. 
And I hope we can advance more bipartisan transparency 
legislation in this Congress.
    Audit the Fed, sponsored by Mr. Massie of Kentucky, 
provides insight into the practices of the Federal Reserve 
while continuing to support its independence as an instrument 
of monetary policy.
    The Open Government Data Act, sponsored by Mr. Farenthold 
of Texas, requires Federal agencies to publish data in an open 
machine-readable format on Data.gov. And the Freddie--I am 
sorry, the Fannie and Freddie Open Records Act of 2017 applies 
the Freedom of Information Act to Fannie Mae and Freddie Mac so 
taxpayers have critical information they need while these two 
entities are in conservatorship.
    Members of the committee may raise additional pieces of 
transparency legislation in the hearing today, but I think all 
these three pieces of transparency legislation exemplify the 
fundamental right of the American people to know what their 
government is doing and what sort of obligations are in place.
    Chairman  Chaffetz. And with that, I would like to actually 
yield time to the gentleman from Kentucky, Mr. Massie, who is 
the chief sponsor of one of these pieces of legislation. Mr. 
Massie.
    Mr.  Massie. Thank you, Mr. Chairman. And thank you for 
persevering with this hearing in the face of many weapons of 
mass distraction today on the Hill.
    [Laughter.]
    Mr.  Massie. You have assembled a wonderful panel of 
witnesses, and I just want to say something about the bill that 
I have sponsored here.
    Over the past century the value of the dollar has declined 
by over 95 percent, and during those hundred years the Federal 
Reserve, the organization established by Congress to manage 
Congress' article 1, section 8, authority to coin money and 
regulate the value thereof, has operated under a shroud of 
secrecy.
    My bill H.R. 24, the Federal Reserve Transparency Act, 
would put an end to that reign of secrecy. And it is not a 
controversial bill. In fact, Americans demand transparency, and 
the House of Representatives has responded by passing this 
legislation twice in previous Congresses by huge bipartisan 
majorities.
    But I think it is time for a hearing because a lot of the 
reasons have been forgotten about why we need this 
transparency. When the original author of this bill, 
Representative Ron Paul, first carried Audit the Fed to the 
Floor in the 112th Congress, it passed by a comfortable veto-
proof majority. Then, Representative Paul Broun brought it to 
the Floor in the 113th Congress, and it passed by an even 
larger majority, 333 to 92. In fact, members of this very 
committee who were here in those Congresses, all Republicans 
and several Democrats, voted for this bill on the Floor. Yet 
some have still asked and will continue to ask why do we need 
this legislation. And that is the reason this is such a good 
hearing.
    They ask isn't the Federal Reserve already audited? Well, 
that question deserves an answer. It is true that the GAO 
performs a limited financial audit of parts of the Federal 
Reserve, but this audit is perfunctory. Due to the limits 
placed on the GAO by Congress, the U.S. Code makes several 
critical exceptions to the Fed's audit protocol of its most 
crucial activities.
    Number one, GAO is prohibited from examining Fed 
transactions or agreements with foreign governments and foreign 
banks. Number two, GAO is prohibited from examining all Fed 
actions on monetary policy matters. Number three, GAO is 
prohibited from auditing transactions made at the discretion of 
the Federal Open Market Committee. And four, GAO cannot examine 
any discussion or communication among or between anyone who 
works at the Fed about any of the activities in the first three 
areas.
    When these restrictions were originally added in the 1970s, 
GAO themselves testified that they, quote, ``could not see how 
they could satisfactorily audit the Federal Reserve system 
without the authority to examine the largest single category of 
financial transactions and the assets that it has.'' So you 
see, even though a cursory audit is done, a programmatic audit 
needs to be completed in order for Congress to understand what 
the Fed does and why the Fed does it. Without a complete audit, 
Congress can't provide oversight of an entity that it created.
    Let me say that again. Congress created the Federal 
Reserve. Congress and Congress alone has the constitutional 
responsibility to coin money and regulate the value thereof. We 
can outsource the activity, but we can't outsource the 
responsibility.
    This brings me to the other question I frequently hear, 
which is won't a full audit of the Federal Reserve compromise 
the Fed's independence? Well, the answer is without a full 
audit, how can we know it is independent? For instance, how is 
it independent of the executive branch? The Fed's charter is 
not to be a second Treasury Department. How can we know that 
the Fed is operating independently of big bank CEOs and Wall 
Street?
    Given the revolving door of managers between the Fed, the 
Treasury, and Wall Street, the opportunity for outside pressure 
and conflicts of interest abound at the Fed. Only a full audit, 
a full audit can demonstrate that the Fed makes decisions 
independently of the political whims of the President and 
independently of the profit goals of commercial banks.
    An organization entrusted with daily decisions that affect 
the value of Americans' paychecks and the value of their 
retirement savings, an organization whose mission has morphed 
into facilitating the bailout of foreign banks, folks, this is 
an organization that requires a full audit and full oversight 
from the elected body that created it.
    I want to thank Chairman Chaffetz for his leadership on 
this issue throughout many years and for including this bill as 
part of today's hearing. I urge my colleagues to support the 
bipartisan Federal Reserve Transparency Act so the people of 
America can receive the transparency they deserve.
    I thank you, and I yield back.
    Chairman  Chaffetz. I thank the gentleman. And I thank you 
for the tenacious leadership that you have had in bringing this 
bill forward, and I look forward to having a good, vibrant 
discussion about that bill today. I yield back and now 
recognize the ranking member, Mr. Cummings.
    Mr.  Cummings. Thank you very much, Mr. Chairman.
    The purpose of this hearing is to examine legislation to 
improve transparency in government. Mr. Chairman selected 
several bills to focus on today, and we agree on some of those 
bills. I like the Open Government Data Act, and we disagree on 
one of them, the Federal Reserve Transparency Act. I appreciate 
the opportunity for a healthy debate on these measures.
    However, I believe that there is one transparency bill the 
committee should prioritize over all others. The Presidential 
Tax Transparency Act would require President Donald Trump and 
all future Presidents and presidential candidates regardless of 
party to disclose their tax returns to the American people.
    This bill was introduced by Representative Anna Eshoo, and 
it has 73 bipartisan cosponsors. Every Democratic member of 
this committee is a cosponsor, as well as our Republican 
colleague, fellow Oversight Committee member Mark Sanford.
    Chairman Chaffetz has said what many of us believe, that 
President Trump should disclose his taxes. Last August, he said 
this, and I quote, ``If you are going to run and try to become 
the President of the United States, you are going to have to 
open up your kimono and show everything, your tax returns and 
your medical records,'' end of quote.
    Other Republican Members agree. Representative Will Hurd, 
another member of our committee, said, and I quote, ``It would 
be a good move for the President to release his tax returns.'' 
But we don't have to just sit around and wring our hands and 
wait and complain. We are not potted plants. We are lawmakers, 
and we can pass a law. Just like Congress passed the Ethics in 
Government Act in 1978 after Watergate to require the President 
to submit a public financial disclosure, we can pass a law 
today to require the President to release his tax returns. And 
that is exactly what this bill does.
    There is widespread public support for this. A petition on 
the White House website that received more than a million 
signatures titled ``Immediately release Donald Trump's full tax 
returns of all information needed to verify Emoluments Clause 
compliance,'' end of quote, every other modern President has 
done this voluntarily. But President Trump broke with this 
precedent claiming that he did not release his tax returns, 
which he said was being audited.
    IRS Commissioner John Koskinen has already debunked this 
argument. When he testified before the Judiciary Committee last 
September, he was asked whether taxpayers are prohibited from 
releasing their tax returns while they are being audited. He 
responded and simply said this, and I quote, ``They are not 
prohibited,'' end of quote. We need to see the President's tax 
returns to confirm that he is acting in what he believes is the 
best interest of the American people rather than his own 
financial interests.
    President Trump's conflicts of interest are very, very 
real. They are extensive, and they are deeply troubling. He has 
refused to divest his business interests and place them in a 
blind trust in direct violation of the advice of the director 
of the Office of Government Ethics, as well as Republican and 
Democratic ethics experts, one of whom is testifying here 
today.
    The President continues to hold an interest in the Trump 
International Hotel in direct violation of the lease, which 
explicitly prohibits any elected official from being party or 
to taking any financial benefit from a contract.
    We also need to understand President Trump's entanglements 
with foreign business interests and foreign governments. Just 
this week, FBI director James Comey confirmed that the FBI is 
investigating connections between President Trump's campaign 
and Russian interference with our election. The American people 
have a right to know what if any financial connections the 
President has to the Russian Government or to Russian business 
interests.
    So I ask unanimous consent, Mr. Chairman, to place in the 
record a March 13, 2017, letter that every Democratic member of 
this committee is asking that the Presidential Tax Transparency 
Act be considered at a business meeting before the committee 
that was supposed to be held on March 16, 2017.
    Chairman  Chaffetz. Without objection, so ordered.
    Mr.  Cummings. We did not take up the bill at that time. We 
have another business meeting, by the way, scheduled for next 
Tuesday, but it is not on the agenda for that markup either. I 
know there is serious interest in this bill on the Republican 
side, and I have talked to many Members personally about this. 
I sincerely hope that we can take it up as soon as possible and 
pass it out of the committee unanimously. The integrity of our 
government depends on it.
    And with that, I yield back.
    Chairman  Chaffetz. I thank the gentleman.
    We will hold the record open for five legislative days for 
any member who would like to submit a written statement.
    I will now recognize our panel of witnesses. I am pleased 
to welcome Mr. Hudson Hollister, founder and executive director 
of The Data Coalition; Mr. Norman Singleton, president of the 
Campaign for Liberty; Mr. John Berlau, a senior fellow at the 
Competitive Enterprise Institute; Mr. Thomas Fitton, president 
of Judicial Watch; Mr. Richard Painter, S. Walter Richey 
professor of corporate law at the University of Minnesota Twin 
Cities; and also with the Citizens for Responsibility and 
Ethics in Government, also known as CREW. We welcome you all 
here today.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. If you will please rise and raise your 
right hand.
    [Witnesses sworn.]
    Chairman  Chaffetz. Thank you. Let the record reflect that 
all witnesses answered in the affirmative.
    Many of you have testified before us previously. We would 
appreciate it if you would limit your verbal comments to no 
more than five minutes. Your entire testimony will be made part 
of the record, as well as any attachments or other things that 
you may have to go along with that testimony. But it will all 
be made part of the record.
    Mr. Hollister, you are now recognized for five minutes.

                       WITNESS STATEMENTS

                 STATEMENT OF HUDSON HOLLISTER

    Mr.  Hollister. Thank you, Mr. Chairman.
    Chairman Chaffetz, Ranking Member Cummings, members of the 
committee, thank you for inviting me to testify.
    In 2012, after serving on this committee's staff, I founded 
The Data Coalition. We represent 36 technology companies, 
employing over 200,000 Americans. Fourteen of our members are 
startup companies founded within the last decade. Ten are 
public companies with a combined market capitalization 
exceeding $1.5 trillion.
    To open up Federal information as a public resource to 
deliver transparency and fuel economic growth, we 
enthusiastically support the Open Government Data Act.
    This committee's mission is to investigate and exercise 
effective oversight over the Federal Government to expose waste 
and fraud and abuse. To support that mission, Chairman 
Chaffetz, under the rules of this House and this committee, you 
wield the authority to issue congressional subpoenas. This 
committee and its staff work hard every day to review the 
information that you receive in response to those requests and 
subpoenas to uncover hidden waste, fraud, and abuse, to expose 
those things through hearings like this one, and to craft 
reforms that safeguard Americans and their money from 
government malfeasance in the future.
    However, even considering the awesome power of the subpoena 
and the professionalism of the staff, this committee needs 
Americans' help. In 2016, the Federal Government took in over 
$3 trillion and spent roughly $3.5 trillion, accounting for 
over 1/5 of the gross domestic product. By revenue, that's 
bigger than the 10 biggest companies in the world combined.
    Our Federal Government is not just the largest organization 
in human history, it's also the most complex. When I was an 
Oversight Committee staffer, I asked OMB, the GAO, and the 
Congressional Research Service how many agencies there are in 
the Federal Government. I received three different answers. To 
conduct oversight across such a scale and complexity is a 
daunting challenge.
    Fortunately, that is where transparency comes in. By giving 
Americans direct access to their government's information, we 
can deputize millions of citizen inspectors general to help 
this committee fulfill its mission.
    This committee pioneered and passed and has championed the 
Freedom of Information Act for over 50 years, but FOIA's basic 
model of request and response, although it's still an essential 
avenue for transparency, is no longer the most efficient one. 
Because most of the government's operations and decisions are 
electronic, information technologies now make it possible for 
the government to operate in the open online without waiting to 
receive a FOIA request.
    The Data Act of 2014, which Ranking Member Cummings, then-
Chairman Issa, and this committee championed, makes open data 
the default for Federal spending information. The major 
deadline of the Data Act is 47 days from now. By May 9, 2017, 
every Federal agency must begin publishing all of its spending 
as standardized open data.
    But the Data Act is limited to spending. Representatives 
Farenthold and Kilmer are introducing the Open Government Data 
Act to take the next step. The Open Government Data Act 
provides that all government information, unless it is legally 
restricted, should be published online using machine-readable 
data formats.
    The Open Government Data Act won't just help Americans 
conduct citizen oversight; it will also help agencies cut 
costs. Most of the expense of big data projects comes from 
extracting information from different sources, transforming 
those data sets into the same format, and then loading them 
into new systems to be analyzed. If Federal data sets were 
consistently available using machine-readable formats to begin 
with, those expensive one-off projects would not be necessary.
    Finally, the Open Government Data Act specifies that when 
the government publishes its information, it needs to use 
nonproprietary data formats, formats that nobody owns. I'm 
going to close by explaining why that technical detail is so 
important.
    Currently, the Federal Government uses an electronic 
identification code called the D-U-N-S Number to identify every 
grantee and contractor receiving Federal funds. The D-U-N-S 
Number is proprietary. It is owned by Dun & Bradstreet, 
Incorporated, which is itself a contractor. This means nobody 
can download Federal procurement or grant information without 
purchasing a license from Dun & Bradstreet. Taxpayers paid for 
that information to be compiled, and they paid for the grant 
and contract awards that this information describes, and yet 
they can't download or analyze this information without paying 
again for it every time. The Open Government Data Act 
challenges Dun & Bradstreet's protected and profitable monopoly 
by requiring the government to use nonproprietary data formats.
    I look forward to the committee's questions. Thank you very 
much.
    [Prepared statement of Mr. Hollister follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman  Chaffetz. Thank you.
    Mr. Singleton, you are now recognized for five minutes. 
Please make sure you bring that microphone up close and 
personal and push that button and we are off to the races. 
There you go. Push that talk button there.

                  STATEMENT OF NORMAN SINGLETON

    Mr.  Singleton. Thank you. On behalf of Campaign for 
Liberty's almost half-a-million members, I appreciate the 
opportunity to appear before you today to talk about the 
Federal Reserve Transparency Act, more popularly known as Audit 
the Fed.
    Campaign for Liberty is a public policy organization 
founded in 2008 by Dr. Ron Paul to advance the principles of 
individual liberty, free markets, and limited government. Audit 
the Fed has been our signature issue since we were founded.
    Audit the Fed has been introduced by Representative Massie 
this year in the House. In the Senate it's introduced by 
Senator Rand Paul also of Kentucky. It currently has 93 
cosponsors in the House and 14 cosponsors in the Senate. As Mr. 
Massie mentioned, it has twice passed the House in 2012 and 
2014, both by overwhelming majorities. In 2016, it received 54 
votes in the Senate, just six shy of achieving cloture. It was 
also supported by every Senator running for President last 
year, including--and it also has the--had the public support of 
then-candidate and now President Donald Trump.
    Audit the Fed is a simple one-page bill that removes the 
provisions in law that prevent the General Accounting Office 
from doing a full audit of the Federal Reserve's conduct of 
monetary policy. Specifically, the bill allows the GAO to Audit 
the Fed's dealings with foreign central banks, governments of 
foreign country, or private international financing 
organizations. It also allows the GAO to look into 
deliberations, decisions, or actions on monetary policy 
measures, including discount window operations, reserves of 
member banks, securities credits, interest on deposit, and open 
market operations.
    Finally, it allows the GAO to look at transactions made 
under the direction of the Federal Open Market Committee or as 
part of discussion or communications among or between members 
of the board and officers and employees of the Federal Reserve 
system.
    Passage of this bill will remove congressionally imposed 
limits that prevent the GAO from doing its job and thus allow 
Congress and, more importantly, the American people to finally 
know the truth about the Federal Reserve's conduct of monetary 
policy, which is something that directly affects the economic 
well-being of every American.
    The case for this bill is strengthened when one considers 
that the Federal Reserve's conduct of monetary policy can 
charitably be described as disastrous. As Mr. Massie pointed 
out, since the Fed was created in 1913, the dollar has lost 95 
percent of its purchasing power. According to some, you would 
need $24 today to purchase what you could buy with $1 in 1913 
when the Fed was created.
    The Federal Reserve is also responsible for the boom-and-
bust cycle that has plagued the American economy over the past 
hundred years. Every economic downturn from the Great 
Depression to the 2008 market meltdown can be laid at the feet 
of the Federal Reserve.
    The Federal Reserve--one reason why the Federal Reserve 
might oppose the audit is revealed by a limited audit that was 
authorized by the 2000 and--was it '10--Dodd-Frank legislation, 
which was limited to examining the Fed's response to the 2008 
market crash. That audit found that between 2007 and 2010 the 
Fed committed over $16 trillion, which is more than four times 
the annual budget of the United States, to foreign central 
banks and politically influential private companies.
    The Federal Reserve also has a history of lobbying to 
oppose transparency. In fact, according to Dr. Robert Auerbach, 
a professor of public affairs at the University of Texas, the 
Fed actively coordinated efforts by financial institutions, 
which are under the Fed's regulatory jurisdiction, to lobby 
against an attempt to allow the GAO to fully audit its conduct 
of monetary policy during--in the '70s. The result of that 
effort was the restrictions that the current audit bill would 
lift.
    I ask the Members of Congress to consider how you would 
react if it came out that any other congressionally created 
agency was working with private industries that were under its 
jurisdiction to hide the full truth about it its operations 
from the American people.
    In conclusion, Mr. Chairman and members of the committee, 
Congress has allowed the Federal Reserve to conduct monetary 
policy in secret for over 100 years. The result has been a 
steady decline in the dollar's purchasing power, a series of 
financial crises, the growth of a major government fueled in 
large part by the Federal Reserve monetization of the national 
debt, and an increase in income inequality and crony 
capitalism.
    Therefore, on behalf of Campaign for Liberty and, more 
importantly, the nearly 75 percent of Americans who support 
auditing the Fed, I urge Congress to take up and pass this bill 
as soon as possible.
    I thank the committee for giving me the opportunity to 
testify, and I look forward to answering your questions.
    [Prepared statement of Mr. Singleton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman  Chaffetz. Thank you.
    Mr. Berlau, you are now recognized for five minutes. Again, 
bring that microphone nice and close.

                    STATEMENT OF JOHN BERLAU

    Mr.  Berlau. Yes. Thank you, Mr. Chairman.
    Chairman Chaffetz, Ranking Member Cummings, and honorable 
members of this committee, thank you for this opportunity to 
present testimony on behalf of my organization, the Competitive 
Enterprise Institute.
    CEI is a Washington-based free-market think tank that 
studies the effects of all types of regulation on job growth 
and economic well-being. We propose ideas to regulate the 
regulators and hold them accountable so that innovation and job 
growth can flourish in all sectors.
    A first step towards such accountability is for government 
agencies that exercise power over American entrepreneurs, 
investors, and consumers to be as transparent as possible. How 
can citizens hold these agencies accountable if we cannot see 
what they are doing? That is why my colleagues at CEI and I 
have long sought to bring sunshine to regulatory agencies 
through Freedom of Information Act requests and insistence on 
public meetings.
    I am pleased that the bills and legislative proposals being 
discussed at the hearing today, including the bipartisan Open 
Government Data Act and Federal Reserve Transparency Act, as 
well as the chairman's own Fannie Mae and Freddie Mac Open 
Records Act and Congresswoman Norton's Open and Transparent 
Smithsonian Act, take significant steps to move transparency 
laws into the 21st century by ensuring that new technologies 
are used to enhance government transparency rather than to 
evade it. These bills should begin to correct the major problem 
of excessive secrecy we have seen at Federal financial 
regulatory and housing agencies over the last decade.
    For instance, the Dodd-Frank Wall Street Reform and 
Consumer Protection Act of 2010 promised to bring 
accountability to the financial sector. However, it created new 
bureaucracies that are unaccountable to the President and 
Congress and have been able to skirt some of Congress' basic 
laws for openness. Dodd-Frank, for instance, exempts the 
Financial Stability Oversight Council which it created from the 
Federal Advisory Committee Act's open meetings laws and gives 
the council vast leeway to hold meetings closed to the public 
and shield details of those meetings from the public.
    The council is tasked with designating firms as 
systemically important, essentially too big to fail. It keeps 
only minimal records of its meetings and provides virtually no 
information as to how it designates financial firms as 
systemically important even though such decisions can 
dramatically affect financial markets in the wider economy.
    Legislation requiring openness and policy deliberations 
about the government-sponsored enterprises Fannie Mae and 
Freddie Mac such as that proposed by Chairman Chaffetz is 
especially important. These are corporations chartered by 
Congress that are now under the conservatorship of the Federal 
Government. Taxpayers have propped them up after the housing 
collapse to the tune of $185 billion. As long as they remain 
under a government conservatorship or receivership, taxpayers 
deserve some sunshine in return for the money they have spent 
on these two entities.
    Government officials' deliberations on the fate of the GSEs 
must also be made public. The Obama administration incredibly 
claimed executive privilege when private-sector shareholders of 
Fannie and Freddie asked for information regarding the Treasury 
Department's third amendment of 2012 in which the government 
began to confiscate and asserted the right to confiscate all of 
the GSE profits even after the GSEs paid the government back 
for bailing them out.
    We have urged the Trump administration to reverse its 
predecessor's unprecedented use of executive privilege, which 
should be reserved only for rare information requests that may 
compromise national security. We also urge this committee to 
investigate the Obama administration's secretive practices in 
this regard.
    Finally, we urge passage of transparency legislation.
    Thank you again for inviting me to testify. I look forward 
to your questions.
    [Prepared statement of Mr. Berlau follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman  Chaffetz. Thank you.
    Mr. Fitton, you are now recognized for five minutes.

                   STATEMENT OF THOMAS FITTON

    Mr.  Fitton. Thank you, Chairman Chaffetz, and thank you, 
Congressman Cummings, for allowing me to testify today on this 
important topic.
    Judicial Watch is a conservative nonpartisan educational 
foundation dedicated to promoting transparency and 
accountability in government, politics, and the law. We were 
founded in 1994, so we have a lot of experience using and 
litigating under the Freedom of Information Act.
    Without a doubt, we're the most active FOIA requester and 
litigator operating today under that law. Unfortunately, during 
the Obama administration, Judicial Watch had to work overtime 
making FOIA requests obviously, but when the administration 
ignored those requests and obstructed access to public records, 
we had to file lawsuits to force executive agencies to comply 
with this vital open-records law.
    Our nation faces a transparency crisis. To be frank, the 
Obama administration was an enemy of open government and 
transparency. The administration's casual lawbreaking, 
especially its defend-everything-approach with the Clinton 
email scandal, is President Obama's real legacy on 
transparency.
    Judicial Watch filed nearly 3,000 Freedom of Information 
Act requests with the Obama administration. We've had to file I 
think over 200 FOIA lawsuits oftentimes just to get a yes or no 
answer from the agencies as opposed to just fighting over what 
documents they were or weren't giving us. There is a way 
forward out of this transparency crisis, and part of that is 
using a committed Congress to pave the way for outside watchdog 
groups like Judicial Watch and citizen activists to investigate 
and expose corruption and malfeasance within the government.
    Judicial Watch shows that even in a hostile political 
environment, one citizen group using the Freedom of Information 
Act independent oversight can help the American people bring 
their government back down to earth and under control how much 
more effective we'd be only if Congress were to enact further 
transparency reform.
    And Judicial--I would note that despite this culture of 
secrecy we've had with the last two administrations, Judicial 
Watch has frequently succeeded in prying loose documents that 
have been denied even to Congress. We saw that with Benghazi, 
we saw that with the IRS. As a result of Judicial Watch's 
disclosures on Benghazi, we had a Select Committee, and even 
the Select Committee couldn't--still couldn't get documents 
that Judicial Watch was continuing to receive in terms of 
breaking open news on how that Benghazi attack occurred and the 
circumstances of the cover of behind it.
    We have of course one of the most egregious violations of 
Federal transparency law since FOIA was passed nearly 50 years 
ago, which was the Clinton email scandals. And obviously our 
work on that is history, but there would be no knowledge about 
her emails if it weren't for our FOIA litigation. It really 
wasn't the Benghazi Select Committee that developed that 
information or forced the disclosure of her email practices. It 
was our FOIA litigation that forced the agency to finally admit 
to the courts that they had these emails that hadn't been 
reviewed as required according to law.
    You know, before suggesting ideas for greater transparency, 
let me reflect on some of the problems we're currently having. 
Many people ask, including members here, how does Judicial 
Watch get documents when they're not able to? And the easy 
answer is that FOIA is straightforward, and it gives access to 
citizens and groups like Judicial Watch to documents under 
court order oftentimes. Congressional investigations even with 
subpoenas are political by nature and require, under the 
current practice, effective enforcement in court with the 
cooperation of a conflicted Justice Department.
    We had an example of that with the Fast and Furious matter 
where Eric Holder was held in contempt over documents that were 
not turned over to Congress. Congress sued in court, couldn't 
get anywhere with that litigation until Judicial Watch had a 
separate FOIA victory that essentially broke open the dam on 
that. So it wasn't--Congress couldn't even get the information 
once it even went to court.
    Judicial Watch has urged President Trump to commit to a 
transparency revolution, and today, we asked Congress to join 
in that transparency revolution by reforming FOIA and giving 
private citizens and groups like us stronger and better tools 
to hold the government to account.
    And speaking of FOIA reform, Congress should apply the 
freedom-of-information concept to itself and to the Federal 
courts, the two branches of the Federal Government which many 
of your voters will be surprised to hear are exempt from 
transparency laws that the President and his executive agencies 
must follow. Certainly in the least, the administrative 
functions of Congress and the courts should be subject to the 
same transparency rules as the executive branch.
    Now, in the meantime, we're interested in at least two of 
the proposals for increased transparency, the Fannie and 
Freddie Mac transparency effort and the Smithsonian Institution 
transparency effort. We filed a Freedom of Information Act 
request back in 2009 for Fannie and Freddie documents about 
their political giving, and we were told in one of the first 
major decisions by the Obama administration on transparency 
issues, despite the FHFA taking custody and control of all 
those records, they were not subject to FOIA.
    Unfortunately, the courts in the end concluded the agency 
could withhold that information from us because even though 
they had custody and control of these records of agencies that 
were now controlling pretty much all the mortgage market and 
have $5 trillion in taxpayer liabilities attended to that, 
because the agency supposedly, quote, ``did not use these 
documents,'' we couldn't get access to any of that information. 
That is a remarkable standard. We can get documents from the 
CIA, the NSA, but not FHFA. And that has got to change. And 
obviously this legislation can help change that.
    And then we have the issue of the Smithsonian Institution, 
another taxpayer-funded entity that is not subject to FOIA. The 
Smithsonian, which operates as a government instrumentality or 
a trust, received $840 million of taxpayer funds in fiscal year 
2016. Most of their employees are Federal employees, but the 
Freedom of Information Act doesn't apply to the Smithsonian. At 
least the courts have interpreted the law. And as a result, 
Americans must rely on voluntary disclosures by the 
government--by this government institution.
    Judicial Watch, for instance, is trying without success to 
obtain documents from the Smithsonian about its decision-making 
regarding this inclusion of Justice Clarence Thomas in its 
African American Museum. And rather than relying on the 
kindness of strangers to find out how billions of dollars are 
being spent, we ask that the--this committee strongly consider 
Delegate Holmes Norton's bill to apply FOIA explicitly to the 
Smithsonian Institution.
    Thank you for your time.
    [Prepared statement of Mr. Fitton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman  Chaffetz. Thank you. I appreciate it.
    Mr. Painter, you are now recognized for five minutes.

                  STATEMENT OF RICHARD PAINTER

    Mr.  Painter. Thank you very much, Mr. Chairman, 
Congressman Cummings, other members of the committee.
    I strongly support the Open Government Data Act and with 
some qualifications support the other two bills. Open 
government data is absolutely critical, and it needs--we need a 
regime where government data is accessible to ordinary 
Americans, and that's not what we have right now.
    I would strongly urge, however, that this bill be expanded 
to include a mandate that the White House visitor logs be 
disclosed to the public, and that should include Jackson Place 
where a lot of those meetings are taking place outside the 
gates, and we know what's been going on there for a while, and 
also the government agencies and Congress. I have the right to 
know when campaign contributors, lobbyists, and others are 
visiting my Congressman to try and get him to waste my taxpayer 
money on something. I have the right to know who's coming in 
and out of the government agencies and the halls of Congress. 
So I support this bill but would expand it significantly.
    With respect to the Fannie and Freddie open records or 
applying the Freedom of Information Act to Fannie and Freddie, 
I approve of that or a similar measure, but it should expand 
beyond the period that these entities are in conservatorship. 
The idea is to prevent another financial crisis. And similar 
disclosure requirements should apply to other banks that are 
securitizing mortgages. This wasn't just by Fannie and Freddie. 
It was by Lehman Brothers, Merrill Lynch, Bear Stearns, and the 
rest of them.
    If shareholders of those banks had had access to records to 
find out what was going on instead of the nonsense that was 
shoveled at them in the 10-K forms by those banks, which quite 
frankly I think were fraudulently prepared, it's quite clear 
that those private entities that were securitizing mortgages 
were lying to their shareholders. We wouldn't have been in the 
situation that we were in in 2008 if there had been more 
transparency from all of the financial institutions, including 
but not limited to Fannie and Freddie, which were securitizing 
mortgages. So I think that's a good bill, but once again, that 
concept of exposure--of disclosure needs to be expanded to the 
rest of the mortgage securitization industry, which has such a 
dramatic impact on our economy.
    With respect to the Federal Reserve, I support this bill in 
principle. The question is whether the Comptroller General 
should conduct the audit or someone else. And it's critical 
that we understand the transparency at the Fed and good 
management is crucial to public confidence in the Federal 
Reserve Bank. We--I've written on the history of the Federal 
Reserve. We tried twice to establish a Bank of the United 
States under Alexander Hamilton and Nicholas Biddle, and one of 
the reasons those efforts did not survive is corruption and 
lack of public confidence. We need to have public confidence in 
the Federal Reserve Bank and the Federal Reserve Board.
    But I also am strongly opposed to the attacks on the 
Federal Reserve, the populist rhetoric that we've had going all 
the way back to William Jennings Bryan, who was attacking sound 
money in the years before we had a Federal Reserve. This is not 
the way to manage economy through ill-informed attacks on our 
Federal Reserve system and on sound money. And I know that 
there are always going to be politicians who want to push the 
Fed to have easy money, particularly in election years, and if 
we politicize the Fed and we destroy the independence, we 
undermine the independence of the Fed, we are in serious 
trouble.
    Now, turning to the Presidential Tax Transparency Act, I 
strongly support this bill. We have a right to know about money 
that is coming into our President's business interests, 
particularly from outside the United States. While this 
committee was spending hours and hours fussing around with 
Hillary Clinton's emails, we had espionage conducted inside the 
United States by Russia and apparently with the assistance of 
Americans. We don't know who they were, but whoever they are, 
those people committed treason.
    And I do not mean to suggest that the President of the 
United States was involved, but we have the right to the 
information on the following forms: Return of U.S. persons with 
respect to certain foreign partnerships, statement of specified 
foreign financial assets, annual return to report transactions 
with foreign trusts in receipt of certain foreign gifts, 
information returned by a shareholder of a passive foreign 
investment company or qualified electing fund, information 
return of U.S. persons with respect to certain foreign 
corporations.
    These are among the many forms that need to be filled out 
by a U.S. taxpayer who is receiving money from abroad. We have 
the right to that information from our President. He has failed 
to disclose his tax returns. Every other President has 
disclosed his tax returns. In an environment where espionage 
has been conducted against the United States and some Americans 
may have engaged in acts of treason, we have the right to that 
information from our President. I urge this Congress to pass 
that bill as soon as possible.
    [Prepared statement of Mr. Painter follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman  Chaffetz. I thank you all for your testimony.
    I will now recognize Mr. Massie of Kentucky for five 
minutes.
    Mr.  Massie. Thank you, Mr. Chairman.
    My first question is for Mr. Singleton. Can you talk about 
the role the Fed played in the housing bubble in 2008? Was 
there any role there? Press your microphone, please.
    Mr.  Singleton. Sorry. Yes, sir. There was a tremendous 
role. The Federal Reserve under Alan Greenspan following the 
collapse of the .com bubble in a Federal--which is a Federal 
Reserve-created bubble, consciously began to pump money into 
the economy, as it does. That money flowed this time into the 
housing market because the Bush administration was making a 
decision to emphasize housing through working with vehicles 
like Fannie Mae and Freddie Mac, and the Federal Reserve was 
also very cognizant and supportive of this policy.
    Without the Federal Reserve pumping money into the economy, 
you would not see that money flowing into specific sectors, 
whether it's .com in the '90s, whether it's housing in the 
aughts, which sends distorted signals of pricing and supply and 
demand to investors and businesses and workers, who then go and 
overheat those markets. At some point it becomes clear that 
they misread the underlying fundamentals of the economy and the 
whole thing collapses. And that's what we saw in '07 and '08.
    If you actually go back and read what my former boss Dr. 
Ron Paul was saying when he was a member of the House Financial 
Services Committee in 2003, 2004, he predicted exactly what 
would happen. And exactly what he said would happen in '03 and 
'04 happened in '07 and '08. And it's not that Dr. Paul has 
some great soothsaying ability. It's that he understands the 
fundamentals of the economy. He understands why the Federal 
Reserve is dangerous.
    And that is why--one of the reasons why he founded Campaign 
for Liberty was to try to continue his efforts to shape and 
make Congress take a more aggressive role in promoting sound 
economics by doing things like auditing the Federal Reserve so 
that we--so that more people could understand what exactly this 
organization is doing and how its policies affect the American 
economy and the American people.
    Mr.  Massie. So you mentioned there were a lot of people 
that--Dr. Paul among them but he wasn't unique in this regard--
that were warning that it might have been superheated, yet the 
Federal Reserve, the board proceeded with this monetary policy. 
Are you in any way saying that Congress should be responsible 
for setting interest rates?
    Mr.  Singleton. Oh, no. No.
    [Laughter.]
    Mr.  Singleton. God forbid. No offense ----
    Mr.  Massie. Well, who would--how would interest rates be 
set or how should the Fed do it differently?
    Mr.  Singleton. Interest rates, like everything else, 
should be set by the market. Money is fundamentally a unit of 
exchange. The value of that should be set by the market as it 
reflects individuals' preferences. The interest rate is a time 
preferences of how individuals view having money for current 
consumption versus their willingness to forgo current 
consumption in order to save it, in order to invest it in the 
future. That needs to be set free of government interference in 
order for it to accurately reflect the preferences of the 
individuals.
    That does not happen when you have a Federal Reserve which 
artificially distorts the interest rates. And that is the root 
of the boom-bust cycle and things like the '08 market meltdown, 
the .com implosion of the--of 2000 and 2001, and even of the 
Great Depression.
    Mr.  Massie. Well, this is not the subject of this 
legislation but it is the subject of another piece of 
legislation very similar to the bill come to be known as Audit 
the Fed, which is some have proposed rule-based monetary policy 
as a way of making sure that Congress doesn't set the monetary 
policy and that the Fed is actually less perhaps political or 
inclined to try to manage the economy. Would rule-based 
monetary policy provide the transparency or some check on the 
Fed?
    Mr.  Singleton. Campaign for Liberty does not take a 
position on whether or not the rules-based monetary--on the 
legislation proposing rules-based monetary policy. I think 
there are some concerns that have been raised by our chairman 
and others that it would still allow the Federal Reserve to 
influence and set the interest rates, and so it would not 
totally clear out the distortionary problems caused by having a 
central bank that has this--the power to set monetary--to 
determine the value of the dollar unhinged from any other 
outside influence such as being tied to a precious metals 
standard, for example.
    Mr.  Massie. All right. Thank you, Mr. Chairman. My time is 
expired.
    Mr.  Duncan. [Presiding] Thank you, Mr. Massie. Mr. 
Cummings?
    Mr.  Cummings. Thank you very much, Mr. Chairman.
    Mr. Painter, on Monday you published an op-ed in USA Today 
together with Ambassador Norm Eisen, the ethics lawyer for 
President Obama entitled, quote, ``Trump's Unprecedented War on 
Ethics,'' end of quote. You and Mr. Eisen wrote, and I quote, 
``The problem starts with the tone-deafness at the top. Trump's 
hotels, golf courses, and other enterprises continue to do 
business with foreign and domestic entities that have interests 
before the government he heads,'' end of quote.
    You also wrote, and I quote, ``This unprecedented situation 
is exacerbated by the fact that we do not yet know the full 
extent of Trump's conflicts. That is because he has failed to 
disclose his tax returns, as we were just reminded, when two 
pages of his 2005 returns turned up,'' end of quote.
    Why is it important that President Trump disclose his tax 
return? We need your mic. We have got to hear this. We want the 
President to hear you.
    Mr.  Painter. First and foremost, as I mentioned, we need 
to know about any financial relationships between the President 
of the United States and foreign powers, whether it is a 
foreign power that spied on Americans, conducted espionage here 
in the United States, apparently with the assistance of 
Americans who may have been working for the Trump campaign. 
Whoever it is, as I say, committed treason. But we have the 
right to know our President's relationship with all foreign 
countries, not just Russia, including these forms which I just 
mentioned. I'm happy to have a member submit to the record if 
you so please. That is of critical importance.
    The President is also conducting trade negotiations with 
foreign countries, including China, where he has many 
trademarks that he has just received. We have a right to know 
how much money is coming under the table to the President while 
he's conducting trade negotiations that affect American jobs. 
So this is important to our national security. It's important 
to our stance on trade.
    Mr.  Cummings. When you were the ethics counselor for 
President George W. Bush, did President Bush release his tax 
returns to the public?
    Mr.  Painter. Absolutely, as did President Obama, President 
Clinton did. Every other President has released his tax returns 
because if Americans are going to be expected to pay taxes, we 
have the right also to know that our President is paying his or 
her fair share. We have the right to know what is going on with 
respect to our President's financial relationships inside and 
outside the United States.
    Last, we have the right to know whether our President is in 
debt to people inside or outside the United States. How much is 
he in debt? How much does he depend on the banks who may very 
well be deregulated when the administration proposes the repeal 
of Dodd-Frank? All of this is information the American people 
have a right to.
    Mr.  Cummings. Did President Bush require the individuals 
being considered for Cabinet positions in his administration 
disclose their tax returns as part of the nominations process?
    Mr.  Painter. I told everybody that came into my office 
when I talked to them that the Senate committee that was 
considering them for confirmation might very well demand their 
tax returns, and many of those committees did, particularly in 
areas that were relative to the national defense or the 
economy. I specifically remember Senator Grassley of Iowa being 
very meticulous about the tax returns of anybody we sent over 
for the Treasury Department. So everybody had to be prepared to 
publicly disclose their tax returns just like the President 
did.
    Mr.  Cummings. On January 5, Representative Anna Eshoo 
introduced the Presidential Tax Transparency Act. This bill 
would amend the Ethics in Government Act to require the current 
President, as well as future Presidents and candidates for the 
Office of President to disclose tax returns for the most recent 
three years to the Office of Government Ethics with their 
financial disclosures. Since President Trump has refused to 
release his tax returns on his own, do you believe that 
Congress should actually require him to release the tax 
returns?
    Mr.  Painter. I believe that Congress should pass the bill, 
but I would make that five or eight years. I'd like to know how 
much money was coming in from foreign powers to someone I was 
going to vote for for President of the United States, and I'd 
like that information a little bit further back than just three 
years.
    Mr.  Cummings. Would requiring President Trump and future 
Presidents and presidential candidates to release their tax 
returns be out of line with what past Presidents have required 
of their nominees for Cabinet positions?
    Mr.  Painter. This is unprecedented, a President refusing 
to release his tax returns and indeed the White House made it 
very clear that the tax returns, people need to sign a tax 
return waiver with the IRS so they could be considered for 
positions because the White House may very well want to take a 
look at it and the Senate committees that are confirming may 
want to see it. And most of those committees indeed do for some 
of the most important positions.
    Mr.  Cummings. Mr. Chairman ----
    Mr.  Painter. Tax returns must be ----
    Mr.  Cummings. Mr. Chairman, as I close, all Democratic 
members of the committee have cosponsored Representative 
Eshoo's legislation. Congressman Mark Sanford, our colleague on 
the committee from across the aisle, has also cosponsored the 
bill, and all Democratic members of this committee have sent a 
letter to our chairman urging H.R. 305 be considered at the 
next markup. And I want to thank you.
    Chairman  Chaffetz. I thank the gentleman.
    Mr.  Cummings. I yield back.
    Chairman  Chaffetz. I now recognize the gentleman from 
Tennessee, Mr. Duncan, for five minutes.
    Mr.  Duncan. Well, thank you, Mr. Chairman, and thank you 
for holding this hearing and for the work that you are doing on 
these bills.
    Mr. Singleton, I am fascinated by or I guess astounded by 
this $16 trillion figure. Would you go into a little more 
detail about where that came from and how they have the 
authority to do that? I mean, that just--I know nobody can 
humanly comprehend of a trillion-dollar figure, but tell us 
more about that, about where that money went and so forth.
    Mr.  Singleton. That is from the Dodd Fed audit that was 
authorized in--like I said in the bill--Dodd Fed Bill, and that 
money basically comes from the Federal Reserve's open-market 
operations when they buy treasury securities, which is how also 
they managed to support a lot of the spending that goes on 
across the street in the capital.
    And one of the problems is that the Fed has--if you look at 
the Federal Reserve statutes, there are parts of it--the 
specific sections escape me now--but that actually do give the 
Fed very open-ended authority to intervene and buy assets, 
private-sector assets of both domestic and international 
companies, foreign banks, foreign reserves.
    And we don't really have a good handle on what they're 
doing with this. We don't have a good handle on their future 
plans. We don't have a good handle on how they're going to--on 
how they have intervened in a situation like Greece or how 
they're going to intervene in future situations. What we do 
have is this limited amount of knowledge that they did make 
dealings to the amount of $16 trillion. I believe it was buying 
reserves, buying other assets during this period.
    And their excuse was they needed to prop up the economy. 
That was also their excuse for the unprecedented intervention 
in the economy by the Federal Reserve under the name of 
quantitative easing, which was supposed to--when they saw that 
their record-low interest rates--which, by the way, I believe 
interest rates are still at a near or record low amount despite 
the Fed's recent actions in raising them--that that has failed 
to generate an economic growth, even a phony economic growth 
that it has in the past.
    And these are all reasons why, unfortunately, the fact that 
you won't get a clear answer, Mr. Duncan, to your question 
until Congress passes the Audit the Fed bill. Fortunately, 
whatever else you think of his other policies, President Trump 
is on record as wanting to sign an Audit the Fed bill as 
supporting the Audit the Fed bill.
    And also, as I mentioned before, this bill does have broad 
bipartisan support. It was supported by every Senator running 
for President. And when I said that, I don't just mean the 
Republican Senators. Senator Sanders voted for the bill last 
year, and he has been a longtime champion of Federal Reserve 
transparency. I--I'm not 100 percent about this but I'm pretty 
sure that you won't find many issues that can unite Rand Paul, 
Ted Cruz, Marco Rubio with Senator Bernie Sanders.
    Mr.  Duncan. Well ----
    Mr.  Singleton. And so I would suggest that--so I would 
again suggest that it's very--that this is very important. If 
Congress ----
    Mr.  Duncan. Well ----
    Mr.  Singleton.--really is serious about changing the 
economic direction of this country, that you start with great 
transparency and start by considering Audit the Fed, along with 
the Fannie and Freddie transparency bills.
    Mr.  Duncan. Okay. Well, I'm running out of time so let me 
just say very quickly I appreciate the work that all of the 
witnesses, all of you are doing in these areas.
    Mr. Hollister, I hope you can end this Dun & Bradstreet 
monopoly.
    And, Mr. Fitton, I appreciate your work that you have done. 
You have been before this committee before, but Fannie Mae and 
Freddie Mac, we have a report here, government-sponsored luxury 
paying $3.9 million to the chief financial officer, $4.5 
million to the general counsel, $4.6 million to the chief 
financial officer of Fannie Mae, $5.1 million to general 
counsel for Freddie Mac, $7.8 million to the chief executive 
officer, $9.3 million to the chief executive officer for Fannie 
Mae.
    I mean, it is ridiculous that these entities have been 
losing this money during years that they were losing money they 
were spending all this money to pay these excessive salaries 
and then golden parachute packages to leave. And now recent 
reports say Fannie Mae is spending $56 million to relocate its 
headquarters in downtown D.C. They are out of control, and we 
need more specifics both on this $16 trillion and also on what 
Fannie Mae and Freddie Mac are doing, Mr. Fitton. And I applaud 
you for your work there, and I yield back the balance of my 
time.
    Chairman  Chaffetz. I thank the gentleman.
    I want to recognize the gentlewoman from New York, Mrs. 
Maloney, for five minutes.
    Mrs.  Maloney. Thank you, Mr. Chairman, and I thank all of 
the panelists for their hard work and their testimony today.
    I support the Open Data Act and H.R. 305, the Presidential 
Tax Transparency Act, which Ranking Member Cummings and Mr. 
Painter so eloquently spoke about the need to know about the 
influence of foreign money in our elections.
    But I want to say that I am strongly opposed to what I 
believe is a dangerous bill, H.R. 24, which would seriously 
undermine the independence of the Federal Reserve. First of 
all, we are still reeling from the financial crisis where some 
people say it was $16 trillion, others say it was $18 trillion. 
But we do know it was trillions of dollars of loss to our 
economy, millions lost their homes, millions lost their jobs, 
and it was the first economic crisis that Dr. Hall, a Bush 
appointment to head the Bureau of Labor Statistics, said was 
totally a result of mismanagement, corruption, greed in the 
private sector. It was preventable.
    Christina Romer testified before this Congress that the 
economic impacts of that crisis was five times greater than the 
Great Depression, yet we survived. I can remember constituents 
calling and screaming at me we are going down, we are going 
under, our banks are going under, money markets are going 
under, and many people are given credit for helping us survive, 
Congress, the President, and certainly the Federal Reserve that 
moved in many ways quickly and effectively to respond to the 
financial crisis.
    Even though it began in our country--by all accounts, we 
came back stronger and faster than any other country in the 
world. We had 38 months of economic growth, the longest span in 
history out of the biggest depth of depression we have ever 
had. Would we have liked to have been more? Yes. But when 
President Obama went into office, this country was shedding 
700,000 jobs a month. It was a huge financial crisis.
    And I want to be clear that the Federal Reserve is already 
audited. The Fed's financial statements are audited by an 
independent accounting firm every year, and those audits are 
publicly available. GAO has also conducted extensive audits of 
the Federal Reserve. The only thing that GAO is prohibited from 
auditing is the Federal Reserve's monetary policy decision-
making. Everything else that the Fed does the GAO can already 
audit.
    But this bill would change that longstanding rule and would 
allow the GAO to audit the Fed's monetary policy decisions. 
This would have a number of harmful effects. It would seriously 
undermine the Fed's independence, would cause the markets to 
lose confidence in the Fed's ability to conduct sound monetary 
policy, and would lead to a rise in inflation fears and general 
interest rates. This would ultimately be harmful for the 
economy, for economic growth, for jobs in this country.
    And the Federal Reserve did not cause the economic crisis. 
They were part of the solution in helping us bound back. In 
2010, the Dodd-Frank Wall Street Reform and Consumer Protection 
Act expanded the types of audits GAO may conduct, as well as 
the data that must be disclosed to the public. The Dodd-Frank 
act opened to GAO audit discount window operations authorized 
under section 11(s) of the Federal Reserve Act, and the Dodd-
Frank Act's provisions were crafted to expand transparency 
surrounding the Federal Reserve's operations without 
undermining its independence.
    Further exposing the Federal Reserve's deliberations could 
influence the deliberations that are conducted and the policies 
that are chosen, degrading the independence of the Federal 
Reserve and its monetary policy decisions. Members of Congress 
could actively seek to influence the Federal Reserve's 
deliberations by the types and subjects of audits they request 
from GAO. They could also seek to obtain the matter materials 
GAO assesses in performing audits, including documents related 
to the Federal Reserve's deliberations.
    Now, I would like unanimous consent to place in the record 
a list of questions relating to this issue with the Federal 
Reserve and also the very important bill that the chairman 
mentioned.
    Mrs.  Maloney. But this is a very, very serious matter, and 
I feel strongly about it. I feel that it would be dangerous to 
our economic policy, and I urge a no vote on H.R. 24. Thank 
you.
    Chairman  Chaffetz. I thank the gentlewoman.
    And questions for the record may go to the panel if any 
member will have a couple of legislative days in which to 
submit those. And we appreciate the panel getting us a timely 
response.
    I will now recognize myself for five minutes. And, Mr. 
Fitton, I would like to start with you, and I really want to 
talk about the Federal Housing Finance Agency which in 
September of 2008, as you know, seized Fannie Mae and Freddie 
Mac. What is the financial liability? Do you know off the top 
of your head the liability taxpayers have for that? It is 
something like $5 trillion in mortgage liabilities. Is that 
about your ----
    Mr.  Fitton. Between two agencies it's about ----
    Chairman  Chaffetz. Microphone, sir.
    Mr.  Fitton. I'm sorry. Between two agencies they either 
directly own or insure about $5 trillion worth in mortgages.
    Chairman  Chaffetz. I just want people to settle in on 
that, that taxpayers are on the hook for this amount of money. 
And it is true, right, that the Federal Housing Finance Agency 
is subject to a Freedom of Information Act request, correct?
    Mr.  Fitton. Generally speaking, yes.
    Chairman  Chaffetz. In May of 2009, Judicial Watch put in a 
FOIA request for documents related to political contributions 
made by Fannie Mae and Freddie Mac. How did the FHFA respond to 
that FOIA request?
    Mr.  Fitton. They acknowledged the records were in their 
custody and control but they were not agency records subject to 
disclosure under FOIA.
    Chairman  Chaffetz. And the FHFA denied the FOIA request 
sing the agency, quote, ``did not control them.'' So are Fannie 
and Freddie wholly operated by the Federal Government now? Who 
is actually running that agency--those entities?
    Mr.  Fitton. It is--they've acknowledged repeatedly that 
they do run the two entities, Fannie and Freddie, the Federal 
Housing Finance Administration.
    Mr.  Painter. They're under a conservatorship. They're 
under a conservatorship, were taken over in 2008 under the 
powers the government has under the Housing and Economic 
Recovery Act ----
    Chairman  Chaffetz. Thank you. Thank you. I understand. I 
understand.
    The statute granting the FHFA conservatorship over Fannie 
and Freddie states that the FHFA has, quote, ``all rights, 
titles, powers, and privileges of Fannie and Freddie and of any 
stockholder, officer, or director,'' end quote. Mr. Fitton, is 
that your understanding of it as well?
    Mr.  Fitton. Yes, and it's been acknowledged by the agency 
itself.
    Chairman  Chaffetz. I believe that the statute also says 
that FHFA has, quote ``title to the books, records, and assets 
of any other legal custodian of,'' end quote, Fannie and 
Freddie. Is that your understanding, Mr. Fitton?
    Mr.  Fitton. Yes.
    Chairman  Chaffetz. Is it true that under FOIA an agency 
record is subject to disclosure unless a specific exemption 
applies, Mr. Fitton?
    Mr.  Fitton. Yes. Generally speaking, yes.
    Chairman  Chaffetz. So did FHFA suggest to Judicial Watch 
Fannie and Freddie records were somehow exempt from FOIA?
    Mr.  Fitton. They did not subject--they did not say they 
were subject to FOIA but exempt from disclosure. They said they 
were not subject to FOIA at all.
    Chairman  Chaffetz. So how does one conclude that Fannie 
and Freddie are not subject to FOIA?
    Mr.  Fitton. Well, that's for the--you know, judges figured 
that out for us, and they said that an agency, even though they 
had the records, unless they, quote ``used them,'' they weren't 
subject to FOIA, which just struck me as wrong and still 
strikes me as wrong, but that's the court decision. And so it's 
going to be up to Congress to fix that.
    Chairman  Chaffetz. So that's why I introduced this bill. 
And to members on both sides, what are we afraid of in terms of 
exposing the liabilities that Fannie and Freddie are creating 
for us? And there are exorbitant sums of money going out the 
door, again, that the American taxpayers are liable for.
    I have got to shift gears here to Mr. Hollister just a 
little bit. I want to talk about the data collection. If you 
can kind of explain in layman's terms how the D-U-N-S Number 
works because things were given a code and Dun & Bradstreet, a 
contractor, that system is owned by Dun & Bradstreet. Could you 
kind of explain that to us and how that works and what it costs 
the taxpayers to do?
    Mr.  Singleton. Yes, sir. In the 1990s the General Services 
Administration contracted with Dun & Bradstreet to track 
Federal contractors governmentwide. Dun & Bradstreet operates 
the system that does this. Now, that's pretty normal as far as 
Federal practice goes. What's unique is that the contract 
doesn't just give Dun & Bradstreet the ownership of the system 
that's used to track the contractors; it also gives Dun & 
Bradstreet an interest in the identification code itself. This 
means that nobody can use the information that's encoded using 
that number unless they purchase a license from Dun & 
Bradstreet.
    Now, the Federal Government has a governmentwide license, 
applies to most agencies. It doesn't apply to special-purpose 
entities like the Recovery Board, which is why Recovery Act 
spending had to go dark because they didn't have a license. But 
it doesn't apply to citizens. Citizens, researchers, 
journalists, they can't download and analyze information about 
Federal spending unless they purchase a license from Dun & 
Bradstreet. That means they pay for the information twice.
    Chairman  Chaffetz. So the American taxpayers, they pay for 
the government, right, and the government has a contract, but 
you are saying that the taxpayers who have already paid once 
have to go back and get another license?
    Mr.  Hollister. That's right, sir. They have to pay again 
because there is a--Dun & Bradstreet, which itself a private-
sector contractor, has an ownership interest in the information 
about contractors.
    Chairman  Chaffetz. And they get to see it first then I 
would assume?
    Mr.  Hollister. They do get to see it first and they use it 
for their other business. For example, in order to maintain all 
of this information and its Federal transparency, you might 
need a few data fields. You need to know the name of the 
company, you need to know the address. You might need to know 
what kind of business they're operating. Dun & Bradstreet uses 
its monopoly. It requires every contractor to register with 
that company. And they don't just collect that--those few 
pieces of information. They collect 1,500 additional pieces of 
information and then they sell that.
    They use their monopoly on this identification code not 
just to make money off the taxpayers who want to download the 
information but also to coerce the--those who must register 
with them to provide additional information that they then sell 
as a vendor.
    Chairman  Chaffetz. And it is something we need to spend 
some more time on because it is quite a monopoly and given to 
them by the American people, paid for by the American people, 
and they want to charge it again. And we do have a bill, a good 
bill here I think in order to tackle that.
    My time is far expired. I will now recognize the 
gentlewoman from Illinois, Ms. Kelly, for five minutes.
    Ms.  Kelly. Thank you, Mr. Chair.
    Mr. Hollister, in 2014 Congress enacted the Data Act. That 
law requires agencies by May of this year to report spending 
data in accordance with governmentwide data standards. If it is 
implemented properly, the Data Act will result in a major 
improvement in the transparency of government spending data. Do 
you agree with that?
    Mr.  Hollister. Yes, Ms. Kelly, I do, and we appreciate 
your vigorous oversight as the ranking member of the 
subcommittee on the implementation of the Data Act.
    Ms.  Kelly. Thank you. The Open Government Data Act will 
take another step toward expanding the availability of 
government data. It would in part codify an Executive order 
President Obama issued in 2013 that set as the official policy 
of the Federal Government that government information be open 
and machine-readable whenever possible, even though that is not 
what we have heard here today. Is that right?
    Mr.  Hollister. Yes, that's right, and in fact that's why 
the Congressional Budget Office has scored the Open Government 
Data Act at zero.
    Ms.  Kelly. In a January 7, 2017, blog post you said that 
President Obama's Executive order, and I quote, ``succeeded 
brilliantly in changing the culture of open data.'' Why should 
Congress codify that Executive order?
    Mr.  Hollister. Well, Ms. Kelly, I think that we've seen 
today that it's very difficult to pass transparency reforms 
when there is a current political controversy. For example, 
this idea of presidential tax returns, there is certainly a 
political controversy about that right now, and so there's a 
division.
    However, with the Data Act, as you might remember, it 
passed unanimously. Everyone agreed that we ought to have 
consistent access to Federal spending data. If it's fully 
implemented, it's going to reveal things that nobody 
anticipated. It might reveal those GSA lease payments, for 
instance, and yet it was supported by everybody in Congress. 
That's why it's important to now, when there's not a political 
controversy, for Congress to affirm as a permanent matter we're 
going to publish and we're going to standardize Federal data.
    Ms.  Kelly. Okay. The Open Government Data Act would also 
require agencies to use open licenses for government data when 
possible. There's no doubt that open data supports jobs, 
innovation, and entrepreneurs. Can you speak to the potential 
for our economy and in particular the startup economy that open 
government data could have or create?
    Mr.  Hollister. Yes, I can, Ms. Kelly. There are 14 startup 
companies in The Data Coalition, and all of them want to do 
things with government data. Some of them want to apply 
analytics and find insights. Some of them want to republish it 
on platforms. And some of our companies want to automate 
compliance, reducing the need for lawyers and accountants. All 
that becomes possible when the government adopts consistent 
data formats.
    I can give you one example. Bernie Madoff could have been 
caught if we had consistent data formats. The--Mr. Madoff's 
firm was reporting to the Securities and Exchange Commission 
two different offices, but because they didn't identify 
themselves electronically the same way, those different SEC 
offices never knew about each other's investigations. If we had 
consistent data formats, it would be possible for data 
analytics, including maybe the products that are offered by the 
tech industry, to find connections like that. It's great for 
the tech business. It's also good for oversight.
    Ms.  Kelly. Much of the potential depends on proper 
implementation of these policies. That's why the Obama 
administration created an eight-step plan for implementing the 
Data Act. One of the steps of that plan encouraged agencies to 
inventory their data. Would the inventory requirement under the 
Open Government Data Act be duplicative or do you think there 
is a benefit in including it in the new law?
    Mr.  Hollister. Good question, Ms. Kelly. The inventory 
requirement in the Open Government Data Act was modeled on the 
one that's in the Executive order.
    Ms.  Kelly. Right.
    Mr.  Hollister. And I think agencies therefore could comply 
with it simultaneously.
    Ms.  Kelly. And are these lessons learned from the 
implementation of the Data Act that could improve 
implementation of the inventory requirements in the Open 
Government Data Act?
    Mr.  Hollister. Yes. We've learned from the implementation 
of the Data Act, which we'll have the first results of that 
on--in May 2017. We'll see if agencies are able to report a 
consistent data set covering all their spending.
    The most important lesson there I think is that standards 
matter. There needs to be somebody insisting that the 
information has got to be structured the same way across all 
the agency stovepipes, and that insight is going to carry us 
after the Open Government Data Act becomes law.
    Ms.  Kelly. Thank you so much. It is critical that we make 
government data as accessible as possible, and the Open 
Government Data Act would improve the accountability of 
agencies by making government data more transparent and usable.
    Thank you so much.
    Mr.  Hollister. Thank you, ma'am.
    Ms.  Kelly. And I yield back.
    Mr.  Farenthold. [Presiding] Thank you very much.
    We will now recognize the gentleman from Wisconsin for five 
minutes.
    Mr.  Grothman. Okay, Mr. Fitton, I want to talk a little 
bit more about Fannie Mae and Freddie Mac. One thing, you know, 
they have been very active politically giving almost $5 million 
in in political contributions the last 10 years. The biggest 
recipient of those was Senator Dodd, former chairman of the 
U.S. Senate committee on Banking, Housing, and Urban Affairs, 
which is kind of disturbing. One of the biggest recipients was 
then-Senator Obama. Despite being a new Senator they took, you 
know, apparently a big interest in him, you know, developing 
apparently a very close personal relationship with him. Do you 
think information about the amount of money that a powerful 
important Senator Dodd was getting or then-Senator Obama was 
getting--do you think that is easily accessible enough to the 
public?
    Mr.  Fitton. Thank you. Certainly, it's not accessible in 
terms of what the Fannie and Freddie decision-making were 
related to their political contributions. They took care of 
politicians on both sides of the aisle, and certainly there was 
a particular focus on those that were friendly to them in terms 
of oversight.
    Secondly, they put both Republicans and Democrats on their 
boards as well. So if we're looking to find out the failures of 
Fannie and Freddie and why they were allowed to take on so much 
problematic debt or encouraged problematic housing activities 
with--and put the taxpayer potentially on the hook for billions 
of losses, one of those reasons we'd want to find out, well, 
did they manipulate the system or benefit from political giving 
and their relationships with Members of Congress in terms of 
Congress providing protection from significant oversight and 
reform?
    Mr.  Grothman. Okay.
    Mr.  Fitton. None of that's available under law right now, 
although the documents arguably might be there and should be 
looked at, but they ----
    Mr.  Grothman. Why are the documents shrouded in secrecy? 
How did we wind up that way with such an important--I guess 
you'd say the governmental or quasigovernmental agency?
    Mr.  Fitton. Well, it was a decision made early on by the 
Obama administration not to make these documents available to 
the public. I recognize initially when the government took over 
all these government agencies--when the government took over 
these two agencies that, my gosh, well, FOIA has to apply here. 
I also kind of think the same about GM at the time. But, you 
know, we didn't get into that as much.
    But the administration took the position that we're not 
going to release any of these records, they're not subject to 
FOIA, and ----
    Mr.  Grothman. Can the administration release them to this 
day?
    Mr.  Fitton. Well, this administration can change that 
policy in a heartbeat.
    Mr.  Grothman. Okay. Now, we will go to Mr. Singleton. In 
your testimony you cited a provision of Dodd -rank which 
authorized a one-time audit in 2007, 2008. What did this audit 
reveal about the Federal Reserve?
    Mr.  Singleton. Basically, as I said in my testimony and in 
response to Mr. Duncan's questions that during the market 
meltdown of--or following the market meltdown between '07 and 
2010, the Fed, as part of their policies in an attempt to re-
inflate the economy, they committed over $16 trillion to 
foreign central banks and private companies. That's just a--
actually, a fraction of--I believe of their total activities. 
If you look at since that time they've had the quantitative 
easing program, which involved more intervention into the 
private economy in an attempt to re-inflate the economic bubble 
that had burst in '07.
    Mr.  Grothman. We don't get a lot of time here. We had 
somebody from I think the Fed--I think it was on this 
committee; I am not sure. Could you explain quantitative easing 
to me and the degree to which it benefitted private companies?
    Mr.  Singleton. Quantitative easing was the Federal Reserve 
went in and they bought private assets in order to put more 
money into the economy.
    Mr.  Grothman. Did they pay fair value for those assets?
    Mr.  Singleton. You know, off the top of my head I'm not 
sure. They would probably say that they did. This is--might be 
one reason--another reason why we need an audit, to find out 
more about what they do. I know their financial statements are 
audited, but I think we do need more details about their 
transactions in order to fully answer some of these questions.
    Mr.  Grothman. Okay. I will ask you again. Okay. When they 
funded $16 trillion into foreign entities, could you elaborate 
on that a little bit more?
    Mr.  Singleton. I can try and find the details. Off the top 
of my head, I'm not familiar with every--with all of the 
details for that.
    Mr.  Grothman. And which countries would have benefited? 
You can't?
    Mr.  Singleton. I'm sorry. I'm--I can get you that 
information.
    Mr.  Grothman. Okay. Well, we'll wait to get that 
information. Thank you.
    Mr.  Farenthold. Thank you very much.
    I will now recognize the gentlewoman from New Jersey for 
five minutes.
    Mrs.  Watson Coleman. Thank you very much, Mr. Chairman, 
and thank you, gentlemen, for your testimony and being here 
today.
    I certainly support transparency in Federal Government. I 
think taxpayers need to know how government is functioning and 
whether or not we are functioning effectively, efficiently, and 
without corruption.
    Mr. Filfitton?
    Mr.  Fitton. Fitton, yes.
    Mrs.  Watson Coleman. Fitton. Hi. My question is to you 
first. Do you have a FOIA request in to see the current 
President's tax returns?
    Mr.  Fitton. No, we don't. They're not subject to FOIA. The 
White House is not subject to FOIA specifically.
    Mrs.  Watson Coleman. Do you think that they should be?
    Mr.  Fitton. Tax returns? Well, typically tax returns would 
not be subject to the Freedom of Information Act. Sometimes 
disclosure records related to--that may have information from 
the tax returns do but ----
    Mrs.  Watson Coleman. But we do have very consistent legacy 
of past Presidents releasing their tax returns.
    Mr.  Fitton. We have an inconsistent legacy I would say
    Mrs.  Watson Coleman. Do you believe that the tax returns 
could reveal more information regarding obligations, debts, 
spending, earnings, and sources of earnings than is available 
on disclosure statements?
    Mr.  Fitton. Yes.
    Mrs.  Watson Coleman. Thank you.
    Mr. Painter, in an interview with the ABC news in September 
2016, then candidate Donald Trump said, and I quote, ``I 
released the most extensive financial review of anybody in the 
history of politics. It is either 100 or maybe more pages of 
names of companies, locations of companies, et cetera, et 
cetera, and it is a very impressive list and everybody says 
that, but I released a massive list, far more than you--you 
don't learn much in a tax return.''
    Just to be clear, was Mr. Trump required by law to file a 
financial disclosure form as a presidential candidate, or was 
this something he was doing voluntarily?
    Mr.  Painter. He was required to file form 278 ----
    Mrs.  Watson Coleman. Thank you.
    Mr.  Painter.--as a candidate.
    Mrs.  Watson Coleman. Thank you. To your knowledge, has any 
modern President had business entanglements that are as large 
and complex as those of President Trump that we can understand 
given the limited information that he shared with us?
    Mr.  Painter. Nowhere close.
    Mrs.  Watson Coleman. Mr. Painter, last year, you published 
an editorial, together with Norman Eisen, the ethics lawyer to 
former President Barack Obama entitled, quote, ``What Trump's 
Tax Returns Could Tell Us about His Dealings with Russia,'' 
close quote. You and Mr. Eisen wrote, and I quote, ``Trump says 
his tax returns reveal nothing that is not already disclosed on 
his official candidate financial disclosure called form 278e. 
As ethics counsels to the past two Presidents, we dealt with 
both their tax filings and their form 278s. And so we know that 
Trump is wrong,'' close quote. What would we learn from a tax 
return that would not be contained in the financial disclosure?
    Mr.  Painter. I will assume that the tax return is 
truthfully filled out and not loaded up with alternative facts. 
But if it is truthfully filled out, it will disclose in detail 
information about payments received by pass-through entities, 
LLCs, and corporations. Where there is pass-through taxation, 
the entity doesn't pay a separate corporate tax, but the 
taxpayer, if you're the President, pays and I read into the 
record a number of the tax forms that would disclose 
information about dealings with foreign entities that to me is 
of utmost concern to our national security. But there is much, 
much more information as well.
    The key difference between the tax forms and form 278 is 
that the 278 financial disclosure form he filled out lists 
these entities that he has a controlling interest in, sometimes 
a 100 percent controlling interest in, but schedule 278 does 
not list the liabilities of those entities and the income 
streams of those entities. None of that is listed. Schedule B, 
which has liabilities, only has to list the liabilities that he 
is personally liable for or that he has personally guaranteed.
    So the entity on schedule A could owe hundreds of millions 
of dollars to the Chinese Government, the Russian Government. 
We don't know who and we're never going to find out. A lot of 
that you find out through the tax returns. We're entitled to 
that information from our President.
    Mrs.  Watson Coleman. And tax returns are auditable, but 
these other financial disclosure forms are not auditable per 
se. Is that so?
    Mr.  Painter. That is true. We are on an honor system 
within the financial disclosure forms. Of course, if you make a 
false statement ----
    Mrs.  Watson Coleman. Yes.
    Mr.  Painter.--that's a criminal offense. But there is an 
audit, the IRS, of the tax returns. The President apparently 
has an awful lot of returns with an awful lot of audits if 
that's his excuse for not releasing them.
    Mrs.  Watson Coleman. Well, we are certainly finding out 
each and every day that there's greater concern as to this 
President's entanglements and the impact on his ability to 
govern this country in a safe and secure manner. It is simply 
not the case that what he has given to us is sufficient thus 
far, and we need to continue to require that he gives us a full 
disclosure.
    And with that, I believe that this committee should 
consider and pass the Presidential Tax Transparency Act to 
require that President Trump discloses taxes so that we can 
have a more complete view of his finances and so we can find a 
degree of confidence in his governance.
    And with that, I yield back. Thank you very much.
    Mr.  Farenthold. The gentlewoman's times expire.
    We will now go to the gentleman from Iowa, Mr. Blum.
    Mr.  Blum. Thank you, Mr. Chairman, and thank you to our 
panel today for being here.
    Time and time again, John Koskinen, the head of the IRS, 
has asserted, quote, ``We produced all the emails,'' end quote. 
He also has asserted numerous times, quote, ``We spent a 
significant amount of time trying to provide all of the 
information we had,'' end quote. Mr. Fitton, do you know 
approximately when John Koskinen made these claims?
    Mr.  Fitton. He made them repeatedly over the last few 
years, and the IRS generally has been making similar claims in 
court saying they've looked everywhere they needed to look and 
there's nothing else to be found. And just recently, the IRS 
acknowledged there was a category of a least--a group of at 
least 7,000 or so documents that they needed to search in 
response to one of our Freedom of Information Act lawsuits 
about improper auditing that they hadn't searched. And these 
were records not only responses to Judicial Watch's FOIAs but 
my understanding is would have been responsive to congressional 
investigations on those subject matters.
    Mr.  Blum. How long does it take them to receive these? 
When did he make these claims that we've turned over all the 
emails?
    Mr.  Fitton. Well, the IRS told us that they didn't need 
it--that they were done searching and there was nothing else to 
be found reasonably a year-and-a-half ago. We've been fighting 
on this very issue about where they were--needed to search for 
many years though since the scandal was first uncovered in 
2013, and we've been faced with nothing but obstruction and --
--
    Mr.  Blum. Seven thousand emails ----
    Mr.  Fitton. There was another group ----
    Mr.  Blum.--18 months later, is that correct?
    Mr.  Fitton. We don't know when we're going to get all 
those responsive records yet either.
    Mr.  Blum. Why in your opinion, Mr. Fitton, is this 
significant?
    Mr.  Fitton. Well, we need to know that our tax agency is 
being used for lawful purposes. And we need to have the laws 
protect us in that regard in terms of assuring that's 
occurring, and that--one of the key laws, one of the few ones 
that the citizens can use is the Freedom of Information Act. It 
doesn't allow us to get access to anyone's individual tax 
returns, but we can get access to decision-making about their 
policies and such, and to get that information out has been--
required extraordinary legal efforts.
    Mr.  Blum. Do you think the IRS Commissioner was lying when 
he said we produced all the emails, we've spent a significant 
amount of time to pry out all the information we have? Do you 
think he was lying?
    Mr.  Fitton. Well, I'm sure they spent a lot of time, but 
they didn't produce all the emails. And the IRS Commissioner 
specifically made a decision not to inform Congress for several 
months about a major issue they had with email production 
specifically with relation to Lois Lerner and the fact that 
emails from her were not backed up or were backed up but, 
depending on what time of day it was, they got a different 
story out of the IRS. But the Commissioner was not forthcoming 
with Congress for months on that issue.
    Mr.  Blum. Not forthcoming. We call that something 
different in Iowa, but I will accept that.
    So, Mr. Fitton, nearly five years after Lois Lerner 
preempted the inspector general with a planted question that 
the IRS was in fact targeting people for their political 
beliefs, still, still 18 months later no one has been held 
accountable and documents are apparently still outstanding, 
correct?
    Mr.  Fitton. It's longer than 18 months. It's 2013 and 
we're now going into 2017. So it's four years and we're still 
waiting for documents on that issue.
    Mr.  Blum. This is exactly why transparency is so 
important. It's exactly why this hearing is important. It 
should not take years of FOIA requests, congressional 
investigations, and court battles for Americans to get answers. 
The folks in my district applaud--when I say no one, including 
no one in Washington, D.C., is above the law.
    Thank you for your testimony. I yield back my time.
    Mr.  Fitton. Thank you.
    Mr.  Farenthold. Thank you very much. The gentleman yields 
back.
    I will now recognize the gentleman from Maryland, Mr. 
Sarbanes.
    Mr.  Sarbanes. Thank you, Mr. Chairman. I want to thank the 
panel.
    Mr. Painter, I am glad you are here, and I want to thank 
you for your work and your focus on these issues of conflicts 
of interest.
    You said, and I certainly agree, that the example, the 
standard of transparency disclosure, accountability has to be 
set from the very top, that the President of the United States 
has to demonstrate a clear commitment to those principles. And 
obviously, when you served when your colleague Norm Eisen 
served, that was the kind of standard that was adhered to. I 
don't think we are seeing that from the current administration, 
and I think that the examples set or lack of examples set is 
kind of trickling down, finding its way into the various 
Cabinet appointments into the way those agencies are operating, 
which puts an extra responsibility on Congress and on 
committees like this one, the Oversight and Government Reform 
Committee, to press for that kind of transparency and 
accountability.
    I think this committee could be doing a lot more in that 
regard frankly and some other standing committees in the House 
and the Senate to press on the administration for the 
accountability and transparency that we would like to see.
    We have pulled together a task force, Democracy Reform Task 
Force, which I chair and is vice-chaired by a number of my 
colleagues to try to push on this issue of conflicts of 
interest. And we have been cataloguing all of the efforts that 
have been undertaken by Members of Congress on our side of the 
aisle over the last six, seven weeks to try to elicit some 
decent information about what is happening with the Trump White 
House and with the various agencies.
    Legislation has been introduced, and I will turn in a 
moment to the Tax Transparency Act to speak to that, but there 
are many other bills that have been introduced by members of 
Congress to try to get more information and accountability. We 
have been introducing amendments in various committees to 
insist upon that disclosure. Democrats have brought privileged 
resolutions to the Floor of the House seeking disclosure of the 
President's tax returns for all of the reasons that you have 
enumerated.
    In committees we have been filing resolutions of inquiry, 
which are one of the few tools we have available to us when the 
leadership of those committees doesn't, on its own initiative, 
seek to get the kinds of answers that we need. And we have 
sent, through standing committees and Members on their own 
initiative have sent nearly 120 letters to representatives of 
the Trump administration on a whole variety of topics where we 
are seeking good information.
    Those have gone unanswered. So it has been very 
frustrating, but I come back to the notion that transparency, 
disclosure, those standards begin at the top. And of course the 
President has refused to disclose his tax returns, which I 
think has kind of set the tone.
    And, you know, when I talk to people across the country on 
this issue, and 70 to 80 percent of Americans would like to see 
those tax returns, and they want to see them because they just 
want their anxieties to be addressed. I think people are 
worrying that there may be some divided loyalty here, that the 
President isn't putting his responsibility and the public trust 
that goes in the Office of the Presidency ahead of these other 
business concerns. Maybe he is, but without getting the 
information, there is no way we can know that.
    And I think that is why the public is expressing this 
degree of anxiety and saying, look, just come clean. Let us 
just see, as all other Presidents have done, what is in your 
tax returns.
    I am running out of time but I want you to address again 
the fact that, you know, the average person, when they file a 
tax return, they don't have all of these assets and foreign 
entanglements and business interests so they may not realize 
what kind of information you can actually get from an extended 
tax return. Can you just touch on one more time the various 
schedules and what they provide in terms of information and how 
important that is for us to get some assurance with respect to 
our concerns about conflicts of interest?
    Mr.  Painter.--President we already have substantial reason 
to believe that he may owe his job to Vladimir Putin. We ought 
to at least know whether he has financial dealings with the 
Russians, with the Chinese, any other foreign governments with 
oligarchs in those countries.
    The schedules I read into the record are very relevant 
here. Most of them focus on that flow-through taxation. If you 
own an entity, a corporation, or an LLC and it does not 
separately file a tax return and pay taxes, the profits and 
losses, the debt payments, all of those flow through to your 
taxes, the taxpayer. And so you would fill out these forms that 
would disclose those payments, income and debt payments to 
those entities such as the form on information return of U.S. 
persons with respect to certain foreign corporations or 
information return of a shareholder of a passive foreign 
investment company of qualified electing fund, annual return to 
report transactions with foreign trusts in receipt of certain 
foreign gifts, statement of specified foreign financial assets, 
return of U.S. persons with respect to certain foreign 
partnerships.
    Those are only a few of the many return forms that would 
divulge this information. None of it is on schedule A of a form 
278. This is information that particularly in this context, 
given what foreign governments have done to conduct espionage 
inside the United States, given the apparent cooperation of 
Americans with that, we have the right to this information 
about our President. He should be disclosing it voluntarily, 
immediately without having to have a bill passed by Congress.
    Mr.  Farenthold. Thank you. The gentleman's time is expire.
    I will now recognize the gentleman from Kentucky, Mr. 
Comer, for five minutes.
    Mr.  Comer. Thank you, Mr. Chairman.
    I yield my five minutes to my fellow Kentuckian, 
Congressman Massie.
    Mr.  Farenthold. The gentleman is recognized.
    Mr.  Massie. I thank the gentleman from Kentucky for 
yielding.
    I wanted to ask Mr. Singleton--I didn't get a chance to ask 
this before--what has happened to the Fed's balance sheet since 
2008?
    Mr.  Singleton. It's exploded. The Federal Reserve has a 
lot of--more assets again in its attempt to reignite the 
economy from the highs of the '04, '05 when the housing market 
was really exploding to the crash of '07 and '08. And there's a 
lot of concern expressed by a lot of people that the Fed needs 
to start unwinding these--the balance sheet.
    Mr.  Massie. Can they unwind the balance sheet without 
having any economic ramifications?
    Mr.  Singleton. And that's the other problem. If they 
just--if they start dumping these assets onto the market, it's 
going to cause major turmoil, and it's also going to negatively 
impact the Fed's position because if you have a lot of things 
that you want to get rid of, if you put them all out at once, 
it's going to decrease the value of any given--any individual 
asset. So the Fed is really kind of stuck between a rock and a 
hard place right now in terms of the need to unwind the balance 
sheet.
    Mr.  Massie. So, you know, and going back to 1977 I think 
it was there was a Reform Act where Congress imposed a mandate 
on the Federal Reserve that is called a dual mandate ----
    Mr.  Singleton. Right.
    Mr.  Massie.--but there are actually three mandates in 
their which are price stability, moderate long-term rates, and 
maximum sustainable employment. Are those always complementary 
goals?
    Mr.  Singleton. I think in the free market they actually 
are. With the Federal Reserve monetary policy and the way that 
it's traditionally been looked at, no, there is the argument 
that you can have inflation or unemployment, that there's a 
choice between them. I think that the experience in the '70s--
and hopefully, we're not coming to that but it could happen 
again with stagflation, show that you can actually have high 
unemployment and high inflation at the same time.
    I think that, you know, saying that we're going to trust 
the secretive central bank in 1977 was six years after Richard 
Nixon severed the last link between the Federal Reserve and 
gold, which really kind of cemented our fate in terms of the 
problems that we would have from a fiat monetary system, is 
that the idea that the Fed can just somehow pinpoint the exact 
right interest rates, the exact right level of inflation that 
will lead to the exact right level of unemployment where you 
won't have long-term unemployment, you'll just have the regular 
unemployment you have as people change jobs, retire, et cetera, 
is wrong.
    I mean, we hear a lot about Russia today at this hearing 
from critics of the current administration, but one thing I 
think we need to consider looking at Russia is didn't their 
experience in the last century teach us that Soviet--that 
central planning doesn't work, and if central planning didn't 
work for Soviet Union agriculture, what makes you think that 
it's going to work for America and the world monetary policy 
system?
    Mr.  Massie. It doesn't seem like it is working for us, at 
least not in the last several decades.
    Mr. Painter, in the time I have remaining, you expressed 
some reservations about this particular bill, but you were 
somewhat supportive of auditing the Federal Reserve more fully. 
Can you expand on that?
    Mr.  Painter. I believe there needs to be full disclosure 
of what's going on at the Federal Reserve. I think transparency 
is critical for public confidence. But I think the statements 
made today about the Federal Reserve by Mr. Singleton and the 
statements that I have heard repeated by the far left and the 
far right about the Federal Reserve are dangerous. It is 
dangerous for this Congress to take any steps with respect to 
the Federal Reserve without bringing in professional 
economists, perhaps former governors of the Federal Reserve and 
others, to explain to you how it works.
    This is a situation where if we equate the Federal Reserve 
with Soviet Russia and we proceed to make policy in that way, 
we are exposing our economy to financial collapse ----
    Mr.  Massie. So what ----
    Mr.  Painter.--and that's a very dangerous situation.
    Mr.  Massie. What areas of transparency do they not now 
have that you would support providing?
    Mr.  Painter. I believe that the audit that is suggested 
here, whether it be the--by the Comptroller General or by 
somebody else, that would be very helpful to know more about 
what is going on with respect to monetary policy, to have more 
transparency, to make sure that nothing leaks out of the Fed so 
that there's insider trading based on projections about what 
might happen by people who have inside information.
    It's absolutely critical to have public confidence in the 
Fed, and if more transparency will give that to us, that is 
wonderful, but what I am very scared about is these conspiracy 
theories that are being pushed, equating the Federal Reserve 
with Soviet Russia. That is just false. And if you take that 
testimony and enact legislation based on that type of testimony 
without consulting economists, without consulting experts who 
know what the Federal Reserve does ----
    Mr.  Massie. Let me ask you, are you concerned about their 
balance sheet tripling in the last ----
    Mr.  Painter. I am concerned ----
    Mr.  Massie.--decade?
    Mr.  Painter.--but I want you to hear from people ----
    Mr.  Massie. So I don't think that is a conspiracy theory 
or the fact that they played an adverse role in the housing 
bubble.
    Mr.  Painter. They did, but Wall Street did, too. 
Privately-owned banks, Lehman Brothers, Bear Stearns, Merrill 
Lynch ----
    Mr.  Massie. A lot of those folks work at the Fed. All 
right. Thank you. I yield back.
    Mr.  Farenthold. The gentleman's time has expired.
    I will now recognize the gentleman from Maryland for five 
minutes.
    Mr.  Raskin. Mr. Chairman, thank you very much.
    Mr. Painter, I have admired you since I knew you slightly 
in college as a high-ranking official in the Bush 
administration. As chief ethics officer, you have always been a 
little conservative for me but most people are, so I am not 
going to hold that against you.
    You are one of the Nation's leading ethics authorities if 
not the leading ethics authority in the United States of 
America today, and the questioning from my friend from Kentucky 
puts me in mind of a letter that was written by James Madison 
to a Kentucky farmer where he said that, ``popular government 
without popular information is but a prologue to a farce or a 
tragedy. The people who mean to be their own governors must arm 
themselves with the information and the power that knowledge 
brings.''
    So I want to ask you about the Emoluments Clause which 
prevents the President and all of us from collecting payments 
from foreign governments, princes, kings, and foreign offices 
and states. In your experience as an ethics official for 
President Bush, if a President were to receive a trinket, a 
painting, a statue, or something from a foreign government, 
what would you do if you wanted to keep it according to the 
terms of the Constitution?
    Mr.  Painter. Well, you would have to have consent of 
Congress.
    Mr.  Raskin. So how do you go about getting the consent of 
Congress?
    Mr.  Painter. Through a bill ----
    Mr.  Raskin. Okay. So ----
    Mr.  Painter.--or through a resolution of Congress ----
    Mr.  Raskin. so just tell me technically if you are working 
with the President and the President says I am concerned I am 
getting all this money from abroad, I am getting presents and 
gifts, I want to make sure I am clean with the people of the 
United States and the Constitution, what do I do?
    Mr.  Painter. Step one, disclose it. If it's over the 
amount already authorized under the Foreign Gifts and 
Declarations Act, sit down with Congress. Here President Trump 
could sit down with a Republican-controlled Congress and say 
this is what I've got. How much can I keep?
    Mr.  Raskin. So who would you ask, your White House 
counsel, your ethics officer to go to, who, the Speaker of the 
House?
    Mr.  Painter. I would go--I'd have the White House counsel 
work with the lawyers in both chambers and discuss and discuss 
what the President has and disclose what the President has.
    Mr.  Raskin. Did you ever do that as the White House ethics 
officer?
    Mr.  Painter. Oh, no, because the President wasn't 
receiving payments from foreign countries.
    Mr.  Raskin. Okay.
    Mr.  Painter. We didn't have that kind of thing going on in 
the Bush administration.
    Mr.  Raskin. Okay. And do you know of other cases in the 
past where Presidents have received a painting or a gift that 
they want to keep and they go to Congress to receive it. Are 
you aware of that?
    Mr.  Painter. Not recent--not in recent memory. They ----
    Mr.  Raskin. Okay.
    Mr.  Painter. The gifts would be declined or turned over to 
the United States Government.
    Mr.  Raskin. Okay.
    Mr.  Painter. If someone tried--a Saudi prince tried to 
give a Rolex watch to someone in the security--in the White 
House in the national security area, and I think we said no, 
that's not going to work.
    Mr.  Raskin. Okay. And without going to Congress you just 
refused it?
    Mr.  Painter. No, we don't take Rolex watches from the 
Saudis.
    Mr.  Raskin. Okay. So let me ask you this question then. We 
have never had a President at least in our lifetimes who has 
the kind of extensive foreign business empire that this 
President has with the Trump hotels and the Trump golf courses 
and the business contracts, the trademarks, the deals all over 
the world, entanglements directly with foreign governments, as 
well as corporations controlled by foreign governments. And 
there are lots of allegations that he has been collecting 
emoluments from day one. There has been no attempt to come to 
Congress to ask us for our consent.
    Now, the question is if he had to disclose his tax returns 
and they divulged a relationship with a foreign government that 
suggested emoluments were taking place, we would be able to act 
affirmatively. But this President, the first President in 
modern memory not to disclose his tax returns, hasn't given us 
that information so we don't know. Do you think that we need to 
legislate as the U.S. Congress to compel the President of the 
United States to turn over his tax returns?
    Mr.  Painter. I think you may have to because this 
President will not turn them over. But what this committee 
should also do is use its subpoena power with respect to the 
Trump organization and every one of those entities listed on 
schedule A of his 278 to find out what money is going to those 
entities from foreign governments with a focus first and 
foremost on the foreign government that has conducted known 
espionage inside the United States. And that could be done by 
using the subpoena power with the support ----
    Mr.  Raskin. What are some of the entities you are talking 
about?
    Mr.  Painter. Any of the corporate entities that are owned 
by the President. There are hundreds--they're right--they're 
listed on form 278 schedule A. They own everything from 
trademarks to licensing arrangements to buildings. With the 
buildings we don't know where the debt is coming from.
    Mr.  Raskin. Got you. Let me pause you just there because I 
am running out of time. All of the Democrats on this panel have 
said that we should have a legal obligation for the President 
to turn over the tax returns. Most of the Republicans said 
there is a moral obligation, he should do it. Do you think it 
is a moral obligation or do you think it should be a legal 
obligation, too?
    Mr.  Painter. I think it's a moral obligation right now. 
You should make it a legal obligation by passing this bill. 
And, as I say, this committee should subpoena all the relevant 
information. The Intelligence Committee should be subpoenaing 
the relevant information from the Trump business entities even 
before that bill passes. This is absolutely critical that we 
get this information, and I think it's unfortunate this is a 
Democrat/Republican issue.
    You opened up by saying that I was more conservative. You 
are--I guess I am. I still believe in sound money. I guess the 
Republicans are walking away from that stance. And I believe in 
open government and disclosure, and that includes the 
President's tax returns, and I think those are conservative 
principles and everybody needs to stand up for open government 
from the very top on down. That's what these bills--that's what 
they're about, and that includes the President.
    Mr.  Raskin. Thank you very much for your testimony. And I 
would yield back, Mr. Chairman. Thanks for your indulgence.
    Mr.  Farenthold. Thank you. The gentleman's time is 
expired.
    I will now recognize myself for five minutes.
    And we are going to shift gears a little bit. And in the 
spirit of this hearing and full disclosure, the Open Data Act 
that I am going to ask some questions about is actually 
legislation Representative Derek Kilmer and I are authoring and 
will be reintroducing later on in this Congress.
    And as I am sure you have heard, it is the legislation that 
basically by default makes government information public. We 
want it out in open-source, easily accessible, machine-readable 
format. You know, Americans' tax dollars went to create this 
data, and the American people ought to have easy access to this 
data.
    And with the state of innovation going on in the tech 
community and actually all throughout the world today, we have 
no idea what information we will be able to glean out of this, 
how the government might be able to save money, what new 
inventions might be coming, what scientific advances may 
happen.
    But I do want to be open-minded on this and ask an open 
question to the entire panel. Do you guys see any problems with 
this bill or anything that needs to be added to it to make it 
better? And, I tell you what, since I am sure Mr. Hollister has 
the longest answer, this will go in the other direction and 
start with Mr. Painter.
    Mr.  Painter. It is a very sound bill, yes. There are 
things I would like to add to it. I would like the White House 
visitors log, including, as I say, Jackson Place, what is going 
on over there, the Federal agencies. We ought to know who is 
going in and out of the Federal agencies and lobbying. When the 
campaign contributors are making their pitch, there ought to be 
a lot more information about those types of contacts and also 
Members of Congress.
    There's a healthcare bill that's going to be voted on later 
today. There are a lot of people in my district, the second, in 
Minnesota who feel strongly that that bill isn't going to give 
them anything other than take away their health insurance. We'd 
at least like to know who is talking to our Congressman Jason 
Lewis about that bill. So I'm sure that members of your 
districts would like to know who's coming in and out and 
talking about that healthcare bill that's going to have such a 
dramatic impact on their lives.
    So I think there ought to be more disclosure about what's 
going on in government that I'd send over to Congress as well 
as the executive branch, but this bill is an excellent start.
    Mr.  Farenthold. Great. Mr. Fitton?
    Mr.  Fitton. Oh, I can come up with all sorts of amendments 
along the lines as Mr. Painter suggested, but I don't have any 
comments specifically on the ----
    Mr.  Farenthold. All right. And if you all want to submit 
those in writing at some point, I certainly would be open to 
hearing what they are.
    Mr.  Fitton. Thank you.
    Mr.  Farenthold. And, Mr. Berlau. I am sorry. I 
mispronounced your name. Could you ----
    Mr.  Berlau. Berlau. Everybody does.
    Mr.  Farenthold. Berlau.
    Mr.  Berlau. It's an ----
    Mr.  Farenthold. I am sorry. I ----
    Mr.  Berlau. It's an excellent bill and I like that it 
makes the data user-friendly that, you know, data can be of no 
use when it's just in a data dump and people--you can't 
separate the wheat from the chaff to use the analogy, but that 
it makes a user-friendly and accessible to--so the taxpayers 
can focus in on what governments are doing.
    But again, I think there are more things Congress can do. 
The Financial Stability Oversight Council, which has almost as 
much power as the Fed in terms of deciding whether a financial 
firm is too big to fail which can, you know, both adversely 
affect the firm with more regulation and as well as give it, 
you know, advantage it by giving it--you know, saying the 
government would bail it out, and yet we don't know anything 
about those deliberations so that that agency, like the Fed, 
needs to be made less secrecy, and we need to investigate why 
in the world there was executive privilege claimed with regard 
to going beyond FOIA, an actual lawsuit in the discovery 
process in Fannie Mae ----
    Mr.  Farenthold. Now ----
    Mr.  Berlau.--so those other abuses as far secrecy need to 
be addressed.
    Mr.  Farenthold. And I don't want to run out of time; I 
want to give everybody a chance. Mr. Singleton?
    Mr.  Singleton. From what I know of the bill, I don't have 
any problems with it. As a former congressional staffer, I do 
think that there might be some concerns with making information 
about congressional schedules and particularly what 
constituents they meet with. Contrary to--I'm going to call it 
a conspiracy theory that Mr. Painter seemed to be painting 
here, not everyone that you meet with in Congress is some evil 
lobbyist that's going to line your pockets. A lot of time it is 
average citizens exercising their First Amendment rights to 
petition their government, and I don't know if we need to 
violate the confidentiality of their meetings in order to have 
a more transparent government.
    Mr.  Farenthold. Thank you very much.
    Mr. Hollister?
    Mr.  Hollister. Mr. Farenthold, I think your bill is wise 
because it makes a distinction between operations and 
deliberations. If we were to mandate that the Jackson Place 
logs be made public, as Mr. Painter is recommending, wouldn't 
everybody just move across the street to Pete's Coffee? By 
making that distinction, which is what the FOIA makes, we focus 
on the decisions and the operations of the Federal Government, 
and that's where you'll find the really valuable transparency.
    Mr. Berlau talked about transparency of the Federal--the 
Financial Stability Oversight Council. While separately the 
Financial Transparency Act, which we thank you for 
cosponsoring, would require the agencies of the Financial 
Stability Oversight Council, specifically by amending their 
statutes, to adopt standardized data formats for all the things 
that they do. Sometimes there's a need to focus in on a 
particular area like financial regulation, which is what that 
bill does.
    But I have no changes to recommend for the Open Government 
Data Act because it sets that foundation.
    Mr.  Farenthold. Thank you very much. I see my time is 
expired.
    I will now recognize the gentleman from California for five 
minutes.
    Mr.  DeSaulnier. Thank you, Mr. Chairman.
    And I want to thank all of the witnesses, but I really want 
to focus on Mr. Painter. You are in a very unique position both 
from your business background and your public service I think, 
and also obviously as other members have stated, your service 
in the Republican administration of George W. Bush.
    So my understanding the Ethics in Government Act in 1978 
that was passed by bipartisan effort in 1998, significant 
amendments, those were done with bipartisan efforts. Is that 
your understanding?
    Mr.  Painter. Absolutely.
    Mr.  DeSaulnier. And they came out of the consequences and 
the tribulation of Watergate, correct?
    Mr.  Painter. Absolutely.
    Mr.  DeSaulnier. So to me this shouldn't be a partisan 
issue, and I try to tell people who, when I bring this up in 
the district, that if Mr. Trump decided to be a liberal 
Democrat tomorrow, which I think is conceivable given his 
history, that I would feel the same way as you do, that this is 
much more important than Republican or Democrat.
    So getting to that point, as you have said, the history of 
the act in good faith going consistent with the act but not 
legally prescribed for the act, since President Ford, every 
President has submitted his tax returns and every President--
well, President Carter, Reagan, H.W. Bush, Bill Clinton, George 
W. Bush, Barack Obama have all put their assets in a blind 
trust, correct?
    Mr.  Painter. Yes. They put some of the assets in blind 
trust. Other assets have been conflict-free assets, mutual 
funds, bank accounts, treasury securities, and other conflict-
free assets.
    Mr.  DeSaulnier. So from my understanding on that press 
conference President Trump did before he got inaugurated with 
his attorney who I think background is real estate attorney, 
they made the argument--and I am not a lawyer--that this was a 
unique situation, to put it in a blind trust would not be 
possible for him because of the nature of his international 
involvement. So would you respond to that? Is there anything in 
the law that you have discovered that allows for a President or 
an administration to say normal business practices should be 
different or handled differently?
    Mr.  Painter. Well, the law applies to the President like 
it applies to everybody else, and the Emoluments Clause of the 
Constitution prohibits him or any entity that he owns from 
receiving payments and benefits from foreign governments. So 
that had to be dealt with as of January 20. I do not believe it 
was dealt with, and that's why Citizens for Responsibility and 
Ethics in Washington has filed a lawsuit up in New York to seek 
discovery as to what's going on with emoluments.
    There are other laws as well, bribery and gratuity statutes 
that could be triggered when the President owns businesses and 
his sons are running all over the world trying to cut deals 
with people with Secret Service in tow.
    There's a lot of risk for the President, and that's why I 
urge that he dispose of these businesses as soon as he was 
elected. He could have done that. And the notion that he can't 
sell these businesses, that he can't sell real estate and these 
companies--I mean, he is the author of the book The Art of the 
Deal. He's got lawyers, New York lawyers working for him. I've 
never heard anybody up there in New York say, well, real estate 
isn't liquid. They're buying and selling it all the time and 
securitizing it, moving it out the door. So he could sell it, 
and that's what he should have done to avoid these conflicts.
    Mr.  DeSaulnier. So following on my colleague from Maryland 
who has more expertise in the legal aspects of this, but it is 
my understanding that President Washington asked permission 
from Congress to accept a gift of a painting that was alluded 
to. President Jackson I think came to Congress to ask for a 
gift of a medal. So how do we get to the point first 
politically to get us to feel in a partisan--given the history 
of bipartisan way that this should be separate from Republican 
or Democrat?
    And then secondarily, you are involved in a lawsuit, 
without disclosing anything that you feel uncomfortable with 
disclosing, how would you force this discussion? Because every 
day this goes by my assumption is, given due process and the 
assumption of innocence, but it certainly circumstantially 
looks at whether you are here in Washington, D.C., at the Trump 
hotel, whether you are in Indonesia or whether you are in New 
York or Azerbaijan, it certainly appears that he is accepting 
gifts under the Emoluments Clause.
    So how do you get to a point in this environment, given the 
history both of the Ethics Act but the Constitution? What are 
the triggers, to follow up on my friend from Maryland, to get 
us to a conclusion here where we find out whether he is in 
violation or not, that he gives us his tax returns and we find 
out about these relationships?
    Mr.  Painter. This committee should be subpoenaing the 
relevant information from the Trump business organization. The 
way to make this bipartisan is to discuss this with the people 
in your districts. Republicans and Democrats feel the same way 
about transparency in government with respect to the President 
and everyone else, and that's why Republicans and Democrats 
would support this bill with respect to transparency and making 
the records accessible.
    And I am fully supportive of that, but I think the American 
people also expect to see what's going on with the President's 
tax returns and his dealings particularly with foreign 
governments, particularly a year in which a foreign government 
has conducted espionage inside the United States.
    So the way to make this bipartisan is to go back to your 
districts. We are going to be discussing it in the Minnesota 
2nd Congressional district where I live. We are going to be 
discussing it all through our State. I think it's going to be 
time for every member of this committee, Democrat and 
Republican, ask the people who sent you here how they feel 
about a President who will not disclose his tax returns, and 
then come back to Congress and represent the people who elected 
you.
    Mr.  DeSaulnier. Thank you, Mr. Painter.
    Thank you, Mr. Chairman.
    Mr.  Farenthold. The gentleman's time is expired.
    I will now recognize the gentlelady from the Virgin 
Islands.
    Ms.  Plaskett. Thank you, Mr. Chairman.
    Good afternoon, gentlemen.
    It seems that every day there is a new revelation about the 
contacts between the President's campaign or the President's 
associates and Russian officials. And we are having a 
discussion today about transparency, so I thought this topic 
might be kind of relevant to what we are discussing.
    First, there have been reports that former foreign policy 
advisor Carter Page traveled to Moscow in July of 2016, gave a 
speech. He was critical of the United States. The campaign has 
admitted that it was aware of Mr. Page's trip. Then, after 
initially denying it, Mr. Page admitted that he had another 
meeting with the Russian Ambassador last year. There are 
reports about Roger Stone's connections to WikiLeaks after 
their reports have indicated that Paul Manafort, Rick Gates 
have connections to pro-Russian groups in the Ukraine. Mr. 
Manafort abruptly resigned at that point as chairman of the 
campaign. And just yesterday, the A.P. reported on a secret 
agreement between Paul Manafort and a Russian oligarch to 
receive millions of dollars to work for, quote ``benefits of 
the Putin government.''
    President Trump fired General Michael Flynn from his role 
as national security advisor after it was revealed that he 
secretly communicated with a Russian Ambassador about U.S. 
sanctions and then lied about the communications to Vice 
President Pence and the public. And I tell you it is very 
difficult for me to say the words that the individual lied 
because that is a very strong characterization, but in this 
case there is nothing else that we can call it.
    Then, there were reports about connections to Russian 
interests involving the President's son-in-law Jared Kushner, 
his son Donald Trump Junior, and J.B. Gordon, a foreign policy 
advisor. In fact, according to media reports, Donald Trump 
Junior stated at a 2008 business conference that, quote, 
``Russians make up a pretty disproportionate cross-section of a 
lot of our assets,'' end quote.
    It was revealed that Attorney General Sessions claimed 
under oath that, and I quote, ``I did not have communications 
with the Russians'' was demonstrably false and the Attorney 
General then recused himself from the investigation into 
Russian interference in the 2016 election.
    Never mind the nexus in terms of government and the 
Russians. We have been spending a lot of time talking about the 
President's tax returns, but we do know what assets he has and 
the assets that are very--as Donald Junior said, a cross-
section of assets with the Russian Government or with Russian 
assets on the ground.
    Mr. Felton--is it Fitton?
    Mr.  Fitton. Fitton.
    Ms.  Plaskett. Okay.
    Mr.  Fitton. Fitton.
    Ms.  Plaskett. We know that it is not appropriate to have a 
FOIA request about transition activities and what happens in 
the President's transition requests, but do you intend to have 
a FOIA request for the activities related to this Russian--the 
investigations that are going on in the same way that you had 
investigations and brought the Congress' attention issues with 
Benghazi? I mean, you have stated how we rely on you for that 
----
    Mr.  Fitton. Right.
    Ms.  Plaskett.--and that is important.
    Mr.  Fitton. Yes, we have well over a dozen Freedom of 
Information Act requests pending on the very issues you're 
talking about. Also, we have filed at least two lawsuits that--
over requests that have gone unanswered and, you know, I have a 
particular interpretation of what went on, but the documents 
are going to show what went on hopefully if we get full 
disclosure.
    And it's an opportunity for the administration to clear the 
air on all of this and, you know, I think personally it would 
probably benefit the administration to release this material as 
quickly as possible.
    Ms.  Plaskett. It is interesting that you say you have a 
different interpretation. Will you allow the documents to speak 
for themselves or are you going to try and interpret them?
    Mr.  Fitton. Well, we'll get all the documents out. Our 
practice is to release the documents we get and, you know, 
we'll highlight things we think are important, but all the 
documents are available to the public.
    Ms.  Plaskett. And will the importance of the things that 
you highlight be the things that you would like us to think 
about or the things that you think the American public are 
interested in ----
    Mr.  Fitton. You mean ----
    Ms.  Plaskett.--because I see a line of--your testimony 
seems to be geared towards a specific administration that you 
find more fault for than necessarily this upcoming one as well.
    Mr.  Fitton. Well, you know, I think of the information we 
have for sure we know that classified material was illegally 
leaked presumably by the prior administration, and that ought 
to be very concerning. It doesn't mean that everything the 
Trump transition did either before or after the election was 
appropriate, and there may be documents there that show it 
wasn't appropriate. And we've asked for the questions in a way 
that we'll get it all ----
    Ms.  Plaskett. Great. And what I am concerned with ----
    Mr.  Fitton.--good or bad for President Trump.
    Ms.  Plaskett. What I am concerned with not so much as what 
happened before but what is going to be going on in the next 
three years with his relationship to the Russian Government, 
his assets, and the growth of his own interests and fortune and 
his placement as President of the United States with the 
Russians and those assets. Are you concerned with that?
    Mr.  Fitton. I think it's an area of oversight certainly. 
He's a President who has a massive business wealth and business 
assets, and people are going to want to ask questions. I 
think--unlike Mr. Painter, I think he's taken ----
    Ms.  Plaskett. Because we don't want him to grow his 
business on our backs. That is I think the concern.
    Mr.  Fitton. We don't--no one wants the President to abuse 
his office for personal gain, that's for sure.
    Ms.  Plaskett. Thank you.
    Mr.  Painter. Treason is an issue of oversight.
    Mr.  Farenthold. The gentlelady's time is expired.
    We will now recognize the gentlewoman from Florida for five 
minutes.
    Mrs.  Demings. Thank you so much, Mr. Chairman.
    Good afternoon to our witnesses. Thank you so much as well 
for being here.
    Mr. Painter, I will start with you. In 2009 President Obama 
began releasing the logs that disclosed who came to the White 
House for meetings, tours, or social events. This was widely 
viewed as an improvement to White House transparency. I believe 
you have already spoken about this one but I will ask you 
again. Do you agree that this widely improved White House 
transparency?
    Mr.  Painter. I will concede that point.
    Mrs.  Demings. The Obama administration visitors logs 
revealed a significant amount of information. Just recently, it 
was revealed that Secretary of State and former ExxonMobil CEO 
Rex Tillerson lobbied the Obama administration against 
sanctions for Russia. Should President Trump--and this is to 
you again, Mr. Painter--continue the practice of the Obama 
administration and release his visitor logs?
    Mr.  Painter. Absolutely. And that release should extend to 
the executive branch agencies as well. We need more 
transparency with respect to who is coming and going, whether 
it's lobbyists, whether it's foreign nationals, whether it's 
people who are foreign agents. A lot of them apparently don't 
feel like registering under the Foreign Agents Registration 
Act. We need that information about who's coming and going from 
the top executive branch agencies, including the White House. 
The American people are entitled to that information.
    Mrs.  Demings. Thank you. Mr. Fitton, in August of 2009 
Judicial Watch sued the Secret Service for access to White 
House visitors logs that had been withheld in previous 
disclosures. You said, and I quote, ``The courts have affirmed 
that these White House visitor records are subject to release 
under FOIA law. If the Obama administration is serious about 
transparency, they will agree to the release of these records 
under the Freedom of Information Act,'' unquote.
    Do you believe, Mr. Fitton, that President Trump and his 
administration should release their White House visitors logs?
    Mr.  Fitton. We believe they should at least follow the 
voluntary disclosure of the Obama administration. 
Unfortunately, the appellate court here in the District ruled 
they're not FOIA records. We think that they--he--they should 
reinstitute the policy first changed by President Bush, 
continued by President Obama, to pretend they weren't 
government records subject to FOIA, and President Trump should 
stop that. That's fake law in my view to use a poor turn of 
phrase, and start following the law in FOIA.
    These are records maintained by the Department of Homeland 
Security's Secret Service. Those are agencies under FOIA. And 
the idea that those records aren't subject to FOIA is, you 
know, to me at odds with the law the way I would read it. The 
courts have read it differently, but the President can choose 
to follow the law here. We shouldn't rely on voluntary 
disclosures of that type of information in this circumstance.
    Mrs.  Demings. That is correct. As you said, following the 
court's decision that President Obama, and I quote, ``doesn't 
want people to know who is visiting him'' and that he, quote, 
``took the ball from Bush and ran with it.'' You also testified 
earlier that the administration could make a policy change in 
Freddie and Fannie Mae if they wanted to, so I am assuming you 
believe that the administration could make a change as it 
pertains to this as well.
    Mr.  Fitton. I often jokingly say I'm waiting for the Trump 
administration to come to power and they should enforce FOIA 
the way they're enforcing immigration law.
    Mrs.  Demings. Mr. Hollister, President Trump has not said 
whether he plans to continue President Obama's practice of 
disclosing visitor logs. The White House website for visitor 
access records currently includes no visitors log. The website 
says, and I quote, ``This page is being updated. It will post 
records of White House visitors on an ongoing basis once they 
become available.'' Do you agree that President Trump should 
disclose his visitor logs?
    Mr.  Hollister. Yes, ma'am, I do. I think the Trump White 
House should continue the practice that the Obama 
administration followed of releasing the visitor logs.
    As I mentioned in response to some earlier questions, 
though, I think we need to remember that these logs are going 
to be of limited usefulness. A lot of meetings take place in 
the coffee shops in the area, and you're never going to get all 
the deliberations.
    What's really important is to track what the government is 
doing, the decisions and the operations and particularly the 
money. That's harder to hide, and you see the results there.
    Mrs.  Demings. Thank you. I yield back, Mr. Chair.
    Mr.  Farenthold. Thank you very much.
    I will now recognize the gentleman from Virginia, Mr. 
Connolly, for five minutes.
    Mr.  Connolly. Thank you, Mr. Chairman.
    Mr. Fitton, I was just listening to you talk about your 
passion for FOIA. Was Judicial Watch equally passionate about 
wanting to see the names of the energy executives with whom 
then-Vice President Dick Cheney met with in the White House, 
which the White House refused to disclose you will recall?
    Mr.  Fitton. Yes, we sued the Cheney Energy Task Force 
under the Federal Advisory Committee Act. We also had multiple 
lawsuits I think on the Freedom of Information Act on the 
Energy Task Force, and we took that issue all the way up to the 
Supreme Court. In fact, we sued the Bush administration twice 
as often as we did the Clinton administration under the Freedom 
of Information Act.
    Mr.  Connolly. Good for you. By the way, on FOIA, I was in 
local government in Virginia, unbelievably strict FOIA 
requirements. I had like five working days to respond to any 
FOIA request.
    Mr.  Fitton. That's right. There are a few State 
Legislatures subject to FOIA.
    Mr.  Connolly. But that is what I was going to say. You 
have got some work to do in the General Assembly in Richmond. 
They have exempted themselves from their own FOIA laws, and I 
would love to see them subjected to the same laws they 
subjected us to.
    Mr.  Fitton. One of the other rules Virginia has you have 
to be a Virginia resident to ----
    Mr.  Connolly. But, you know, the interesting thing was it 
worked. For 14 years I was subject to some of the strictest 
FOIA requirements in the country, and you know what, it did not 
disrupt the operations of government. It actually worked. 
Openness can be inconvenient for some politicians, but it 
certainly allowed the public and special groups within the 
public to know what was going on and to make sure we were 
accountable. And I would rather take my chances with that ethos 
than what we are dealing with right now.
    I assume you would agree that every President should 
release his or her tax returns in the spirit of this 
transparency.
    Mr.  Fitton. Yes, the more transparency the better. I would 
----
    Mr.  Connolly. Okay. Absent cooperation voluntarily, do you 
support statutory requirement for such?
    Mr.  Fitton. Well, I just heard about the legislation 
yesterday, and I have a constitutional concern about requiring 
Presidents to release their tax returns and particularly 
targeting this President through legislation specifically, 
which seems to be the excuse for the legislation ----
    Mr.  Connolly. All right.
    Mr.  Fitton. It's not the broader issue; it's about getting 
Trump's tax returns, which may have some constitutional 
infirmities associated with that.
    Mr.  Connolly. Professor Painter, your view on the subject?
    Mr.  Painter. I do not think there's a constitutional 
problem here. On the other hand, I have urged in my testimony 
that we ought to require disclosure of the information that's 
on tax returns with respect to everyone who is high up in the 
government with respect to national defense. We ought to have 
information about foreign government money coming in and out of 
closely held entities owned by the President, the Vice 
President, the Secretary of Defense, Secretaries of Army, Navy, 
Air Force. Matter of fact, we had some Secretaries--I think was 
Army and Navy nominees who pulled back because they didn't want 
to go through the process. I have no idea why.
    Mr.  Connolly. And I respect the constitutional concerns, 
separation of powers, and so forth, but frankly, the public 
right-to-know it seems to me also has to be weighed here, and 
if you don't get voluntary compliance, that we have to look at 
the statutory recourse.
    Mr.  Painter. Absolutely right. And you can require it 
because 278 can simply be amended to require a schedule of the 
tax returns. And you could apply it to people other than the 
President if that's going to be a concern that he's singled 
out. Fine, we'll add those other people.
    Mr.  Connolly. Okay. Professor Painter, because of my time 
because I know, Mr. Fitton, you want to comment, but I have 
very little time left unfortunately.
    Professor Painter, my set of concerns is what could go 
wrong with that. Absent knowing questions of debt obligation, 
relationships, taxes owed or earned, we look at situations 
like, you know, Trump investments in the Philippines, Trump 
investments in Turkey, Trump investments all over the world. 
And one asks oneself, well, what could go wrong with that, not 
knowing all of the details and not addressing the inherent 
conflict of interest through no fault of his own. He is a 
businessman, successful, that is now President, but you are 
President. What could go wrong with all that?
    Mr.  Painter. We don't know yet. But where would we have 
been in December 1941 if President Roosevelt had owned 
buildings in Frankfurt and Berlin and a $300 million revolving 
line of credit from Deutsche Bank? We don't know what the next 
crisis is going to be, but our President is going to face 
dangerous situations around the world, and he needs to be loyal 
only to the United States.
    We have had a foreign government that has conducted 
espionage in the United States and has interfered in our 
elections, and now we have a President who will not disclose 
his dealings with foreign governments, with foreigners, and 
with others. We need those tax returns. We need them now. You 
can pass the bill, you can subpoena the information from the 
Trump business organization. We need that information now.
    Mr.  Connolly. Thank you.
    Mr.  Farenthold. Thank you. And I would like to thank our 
witnesses for being here with us today and for their testimony.
    I would like to ask unanimous consent that members may have 
five legislative days to submit questions for the record.
    Mr.  Connolly. Mr. Chairman? Reserving my right to object 
but I will not object, I forgot to enter into the record--may I 
ask unanimous consent while you are on it to enter into the 
record statements of support for the Presidential Tax 
Transparency Act from a number of groups, including Public 
Citizen, Every Voice, Democracy 21, Center for American 
Progress, and Americans for TaxFairness?
    Mr.  Farenthold. Without objection, they will be made part 
----
    Mr.  Connolly. I thank the chair and I withdraw my 
objection.
    Mr.  Farenthold. All right. So let's just do it again just 
to make sure. Unanimous consent that all members have five 
legislative days to submit questions for the record.
    All right, without objection, that is so ordered.
    If there is no further business, without objection, the 
committee will stand adjourned.
    [Whereupon, at 12:46 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
